<html>
<title> - LEGISLATIVE APPROACHES TO PROTECTING, PRESERVING AND RESTORING GREAT WATER BODIES</title>
<body><pre>[Senate Hearing 111-1226]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1226

                 LEGISLATIVE APPROACHES TO PROTECTING, 
              PRESERVING AND RESTORING GREAT WATER BODIES

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                and the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://www.gpo.gov/fdsys
       

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-351 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 24, 2010
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Feinstein, Hon. Dianne, U.S. Senator from the State of California     3
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     5
Ensign, Hon. John, U.S. Senator from the State of Nevada.........     8
Cantwell, Hon. Maria, U.S. Senator from the State of Washington..    10
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    13
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New 
  York, prepared statement.......................................   146
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   225
Levin, Hon. Carl, U.S. Senator from the State of Michigan, 
  prepared statement.............................................   226

                               WITNESSES

Silva, Hon. Peter S., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    19
    Prepared statement...........................................    22
    Responses to an additional question from Senator Boxer 



    Responses to additional questions from:
        Senator Cardin 




        Senator Carper...........................................    41
        Senator Gillibrand.......................................    59
        Senator Inhofe...........................................    60
Sherman, Hon. Harris D., Under Secretary for Natural Resources 
  and Environment, U.S. Department of Agriculture................    64
    Prepared statement...........................................    66
    Responses to additional questions from:
        Senator Boxer............................................    73
        Senator Inhofe...........................................    74
        Senator Carper...........................................    75
Wright, Patrick, Executive Director, California Tahoe Conservancy   125
    Prepared statement...........................................   128
    Response to an additional question from Senator Boxer........   133
    Responses to additional questions from Senator Inhofe........   134
Dicks, David, Executive Director, Puget Sound Partnership........   136
    Prepared statement...........................................   138
    Responses to additional questions from Senator Inhofe........   143
Grannis, Alexander B. ``Pete,'' Commissioner, New York State 
  Department of Environmental Conservation.......................   147
    Prepared statement...........................................   150
    Responses to additional questions from Senator Inhofe........   156
Marriott, Debrah, Executive Director, Lower Columbia River 
  Estuary Partnership............................................   161
    Prepared statement...........................................   164
    Responses to additional questions from Senator Inhofe........   172
Naftzger, David, Executive Director, Council of Great Lakes 
  Governors......................................................   176
    Prepared statement...........................................   178
    Responses to additional questions from Senator Inhofe........   182
Tauzel, John R., Senior Associate Director of Public Policy, New 
  York Farm Bureau...............................................   187
    Prepared statement...........................................   189
Ullrich, David A., Executive Director, Great Lakes and St. 
  Lawrence Cities Initiative.....................................   201
    Prepared statement...........................................   203
    Responses to additional questions from Senator Inhofe........   208

                          ADDITIONAL MATERIAL

Statement from U.S. Representative Dean Heller from Nevada.......   227
Testimony of the Connecticut Department of Environmental 
  Protection.....................................................   228

 
 LEGISLATIVE APPROACHES TO PROTECTING, PRESERVING AND RESTORING GREAT 
                              WATER BODIES

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The Committee and Subcommittee met, pursuant to notice, at 
9:30 a.m. in room 406, Dirksen Senate Office Building, Hon. 
Benjamin L. Cardin (chairman of the Subcommittee) presiding.
    Present: Senators Cardin, Boxer, Gillibrand, Klobuchar, and 
Merkley.
    Also present: Senators Feinstein, Reid, Ensign, and 
Cantwell.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. The Committee will come to order.
    This is a joint hearing of the Committee EPW, along with 
the Subcommittee on Water and Wildlife. I want to thank 
Chairman Boxer for arranging today's hearing. We have an 
excellent group of witnesses.
    This hearing concerns the great water bodies of this Nation 
and deserves our attention. Marylanders know from our own 
experience that the Chesapeake Bay is critically important to 
our region's economy and to our way of life. And that has been 
passed from generation to generation, but it needs our 
attention.
    And in fact, the National Academy of Public Administration 
has recommended making large scale ecosystems restoration a 
national priority. Large ecosystem programs from the Chesapeake 
Bay to Puget Sound are addressing some of the Nation's most 
complex water resource management challenges. For this reason, 
EPA's latest strategic plan does prioritize protecting these 
ecosystems as a complement to their core national water quality 
program.
    The Water and Wildlife Subcommittee has devoted 
considerable time to the Chesapeake Bay, and more recently to 
the Gulf of Mexico. Today, we turn our attention to five more 
of our most valued waters. The hearing will focus on expert 
views on legislation to help restore Lake Tahoe, the Lake Tahoe 
Restoration Act, and to restore Puget Sound, the Puget Sound 
Recovery Act.
    We will also look at legislative approaches Congress might 
take to facilitate restoration of three other treasured waters, 
the Long Island Sound, the Columbia River Basin, and the Great 
Lakes.
    Each of these vast water bodies is special and iconic, yet 
each is threatened by degraded water quality. Some threats are 
shared, like nutrient and sediment pollution. Others are 
unique, like the danger of wildfire in the forests that 
surround Lake Tahoe. Efforts to restore these important 
resources have struggled to keep pace with growing threats.
    It is for these reasons that so many of my colleagues and I 
are joined here today to meet these threats and restore 
America's waters. We have a great deal of interest among our 
colleagues on each of these bodies of water.
    We will hear from two panels of witnesses that will share 
their thoughts on legislative efforts to strengthen interagency 
and Federal-State partnerships in each of these five regions. 
There is much in common in trying to preserve each of these 
great bodies of water, but each are unique. And we are looking 
for ways in which we can get best practices that we can share 
to make these programs as efficient as possible, as coordinated 
as possible, where we can learn from each of the different 
efforts that are being made in order to preserve these valuable 
resources for future generations.
    And with that, let me turn to the Chairman of the 
Committee, Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Senator Cardin, for 
taking the lead on this hearing today. You are a great 
Subcommittee Chairman, and I say that really from my heart 
because you are moving so much good legislation through this 
Committee.
    I am so happy that Senator Feinstein is here, great leader 
on so many of these issues and on the issue of Lake Tahoe in 
particular today.
    I would ask unanimous consent that my statement be placed 
in the record.
    Senator Cardin. Without objection.
    Senator Boxer. And I am going to summarize it. We believe 
Senator Reid is on his way over, and if other colleagues come, 
I will pause. And then I have asked Senator Cardin, who has the 
gavel here, to go right to our Senate colleagues as soon as I 
finish these remarks.
    Many of our Nation's most iconic bodies of water need 
protection to ensure that they continue to provide ecological 
benefits, economic benefits, and recreational benefits for 
generations to come. That really is our responsibility.
    We all remember the first time that we get to see Mother 
Nature. And for me, coming from a big city, the first time I 
saw Yosemite, I was absolutely speechless, and to this day when 
I see that valley, I am so grateful to those who came before us 
for preserving it.
    The first time I saw Lake Tahoe was a very similar 
experience, the clarity, the color, the different colors when 
the sun shone in certain ways. And I thought, you know, how 
blessed we are in California, but we have work to do to save 
this system.
    And so Senator Feinstein, Senator Reid, Senator Ensign and 
I are working to protect this natural jewel on the California-
Nevada line, Lake Tahoe. Of course, it is a major tourist 
attraction, and we want it to be, but we need to make sure that 
we protect it, and we need to make sure that it has these 
crystal clear waters for our children and grandchildren.
    So our bipartisan bill, the Lake Tahoe Restoration Act of 
2009, S. 2724, would authorize projects to address issues 
ranging from invasive species to wildfires, restore and 
maintain Lake Tahoe's water clarity, and protect threatened 
species in wildlands. It would continue and strengthen the 
efforts begun under the Lake Tahoe Restoration Act of 2000.
    So in closing my comments, I would just say the natural 
beauty of our State is one of the defining characteristics of 
our State, and every history book that you read about 
California starts off with the natural beauty of the State. We 
simply can't lose these magnificent treasures.
    So I look forward to working with my colleagues on both 
sides of the aisle to move this legislation. And I also pledge 
to work with my colleagues from Washington State and from New 
York and Maryland and all the other colleagues who are working, 
just as Senator Feinstein and I are working to protecting these 
magnificent waterways in their States.
    So thank you again, Mr. Chairman, and I look forward to 
hearing from Senator Feinstein.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Cardin. Well, thank you. I think we all thank you 
for your leadership on this Committee. You have focused it on 
the important priorities of our Nation, from the great waters 
to the great challenges that we have as a Nation in preserving 
our great environment. So thank you for your leadership.
    Senator Feinstein, we would be glad to hear from you.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Senator Cardin, and 
thank you very much, Madam Chairman.
    And Madam Chairman, I particularly want to thank you for 
working with me on these bills. This is the second 10-year 
bill.
    Senator Cardin, you might be interested to know that this 
all began when President Clinton was the guest and star at the 
Tahoe Summit almost 11 years ago. And this really called 
everyone's attention to the plight of what was a deteriorating 
situation in a lake that is only one of two clear cold water 
lakes in the world like this, and certainly the jewel in the 
crown of both Nevada and California. We share that lake.
    Now, what happened was that a very unique private-public 
partnership was developed with the first bill, and that 
private-public partnership had about $300 million from the 
private sector put in. Both Nevada and California contributed 
through both Senator Reid and Senator Ensign. Nevada land sales 
helped fund the bill, and of course, Federal money.
    So this bill follows the Lake Tahoe Restoration Act of 
2000, which set this partnership into motion. And about $1.4 
billion of the moneys I talked about have been invested, and 
that includes $424 million by the Federal Government. It 
financed more than 300 projects under the Environmental 
Improvement Program, leading to improvements across the board. 
Let me just tick off a few: improving erosion control measures 
on 429 miles of roadways. I am delighted to be joined by 
Senator Ensign, who has been very helpful, as I just said on 
the land moneys from Nevada with this. We appreciate it.
    We have restored 739 acres of wetlands, treated 33,000 
acres of hazardous fuels, restored 14,000 acres of wildlife 
habitat, including 800 acres of stream environment zones.
    Much work has been done, but much work lies ahead. And 
every year there is a Tahoe Summit. And either Senator Reid, 
Senator Ensign or those of us on the California side sponsor 
that Summit, and people, all groups from the lake come together 
and we go through a day of what the needs are and what the 
advances have been made.
    Now, what has changed? What has changed is that invasive 
species have now evolved into a real threat. University of 
California researchers have found up to 3,000 tiny sharp Asian 
clams per square meter at spots between Zephyr Point and Elk 
Point. So essentially, you have a 30-mile stretch which is 
dotted with these Asian clams, which are so sharp on the sand 
you can't walk on them. They create a rotting algae on the 
lake's beaches.
    An aquatic weed called milfoil is spreading along the 
shoreline. It is a nuisance to motor craft and may pump 
phosphorus into the lake. It is located at South Lake Tahoe.
    And finally, the quagga mussel could decimate the lake, 
much as it has Lake Mead. We found that just one quagga mussel 
attached to one boat could lay 1 million eggs. That is how 
prolific this thing is. And the cold water does not kill it. So 
the quagga is a big problem, and a program is being put in 
place to see that all boats that are brought in are checked 
before they are put into the lake because this infestation of 
quagga would clearly destroy Lake Tahoe.
    Also, catastrophic wildfires. The Angora Fire of 2007 
destroyed 242 homes on the west side of the lake. It scorched 
3,000 acres, and it really was a wake-up call to all of us. 
Today, 25 percent of the Tahoe Basin's trees are dead or dying, 
and these are virtually all national forests. These fuels could 
become wildfires that could incinerate the basin.
    Pollution and sedimentation threaten the lake's water 
clarity. In 1968, U.C. Davis scientists measured an average 
clarity depth of 102 feet. When I was a youngster and went to 
Tahoe, it was 150 feet. But in 1968, it was 102 feet. Clarity 
declined drastically over the next three decades, hitting a low 
of 64 feet in 1997. Now, we have seen improvements this decade. 
Last year, the average clarity was 69.6 feet, so that is a 
little bit better and scientists say that the rate of decline 
has slowed. We need to build on this, clearly.
    And climate change is adding to all of these problems. It 
is found that the ambient water is now 4 degrees warmer, as is 
the air. The basin is hot. It is tinder dry in the summer. It 
is vulnerable to wildfires.
    So this means the cyclical deepwater mixing of the lake's 
waters occur less frequently, and this could significantly 
disrupt the lake's ecosystem.
    Now, what does this bill do? This bill authorizes $415 
million over 8 years to reduce the threat of catastrophic 
wildfire and restore the environment. And I have a commitment 
from Steve Teshara, who is the head of the North Lake Tahoe 
Chamber of Commerce, that the private contribution will be $250 
million, and that is good news.
    This would authorize $40 million for stormwater management 
and erosion control projects to prevent urban runoff. That is 
the greatest threat to water clarity. Authorizes $32 million 
for restoration of watershed and streams to reduce the amount 
of sediment flowing in the lake. Ninety percent of the sediment 
comes from Upper Truckee River, Blackwood Creek and Ward Creek, 
and these are the top priority projects.
    It would require prioritized ranking of environmental 
restoration projects and authorizes $136 million to implement 
these projects; $136 million also to reduce the threat of 
wildfires; $20 million to protect Lake Tahoe from Asian clams, 
quagga mussels and invasive species; $20 million to reintroduce 
the Lahontan cutthroat trout; and $30 million for scientific 
research to produce information on long-term trends in the 
basin and inform the most cost-effective projects.
    All projects funded by this legislation would be evaluated 
for cost effectiveness. There would be annual reports to 
Congress on the status of all projects, including expenditures 
and accomplishments. And scientific data would guide 
restoration programs to ensure that only top priorities are 
funded.
    So it is with a sense of urgency that I join with the 
majority Leader, with Chairman Boxer, Senator Ensign in asking 
this Committee to pass out the second Lake Tahoe Restoration 
Act. I believe that with this legislation we can rise to the 
challenges presented by these threats and build upon the gains 
set in motion by our first bill.
    I want to thank Senator Ensign for being here, for his 
support.
    Senator Boxer. And Senator Reid is here as well.
    Senator Feinstein. And I didn't see Senator Reid. Thank you 
very much for being here. It was a pleasure to work with you on 
this bill. And I just want you to know that your interest is 
really appreciated, and when the Lahontan trout come back, I 
hope you will cook us a good fish dinner.
    [Laughter.]
    Senator Feinstein. Thank you very much, Madam Chairman.
    Senator Cardin. We are going to proceed in the following 
order, with Senator Reid, Senator Ensign, Senator Cantwell, 
Senator Gillibrand, Senator Merkley.
    Let me just point out that Senator Reid is former leader of 
this Committee, very familiar with the work of Environment and 
Public Works Committee, and it is a pleasure to have you before 
our Committee.
    Senator Reid.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. I feel kind of awkward having come late and 
now being----
    Senator Cardin. Well, we want to take the Lake Tahoe, so we 
will go to Senator Reid then Senator Ensign so we can take----
    Senator Reid. Oh, I didn't want to be rude.
    I also thank Senator Feinstein for her love of this 
beautiful body of water that we share with her State. She came 
there as a child. I have heard her talk many times about her 
wonderful trips to the lake.
    Of course, Barbara Boxer, who is Chair of this most 
important Committee, also is a neighbor of ours, and we 
appreciate her interest in this.
    Senator Ensign went to high school around the lake as a 
young man, so his interest in the lake goes back a long time.
    I can remember the first time I saw the lake. I, of course, 
was a grown man at the time, and it was a marvel to me, having 
been raised in the southern part of the State where the water 
is very, very limited.
    So I am happy to be able to testify today. Lake Tahoe is 
both a natural wonder and a critical part of the States of 
California and Nevada's economy. The report recently published 
shows that in 2008, more than 23,000 people living in Lake 
Tahoe region are employed by the tourism industry there. Those 
same people earn more than $1.8 billion in income from tourism 
and tourism-supported jobs.
    And that is why I say that you, Madam Chair, and the 
members of the Committee, how important the travel promotion 
bill is. Think of what this could bring to our country in the 
way of tourists. There is only one other lake like Lake Tahoe 
in the world. It is Lake Baikal, an alpine glacial lake that is 
in Russia. I have had the good fortune of seeing that beautiful 
body of water. And people travel to all over the world to see 
Lake Baikal.
    We are going to spend some money now as a country 
advertising America, and this will be one of the featured spots 
of any advertisement. Lake Tahoe, as Mark Twain said, the 
fairest place in all the Earth.
    Since 1997, when we held the first Lake Tahoe Summit, a lot 
of strides have been made in restoring the health of the Lake 
Tahoe Basin, and I am really happy with what we have been able 
to accomplish. Major forest restoration is underway. Chill 
breaks have been developed around many neighborhoods. Marshes 
and wetlands have been restored, and the mighty Lahontan 
cutthroat trout will soon return to the lake.
    Over the past 13 years we have made Lake Tahoe a model for 
how to bring together local, State and Federal resources in the 
interest of protecting and restoring a great natural resource--
in fact, a national treasure. Today, we ask for your 
partnership in continuing this work in and around Lake Tahoe.
    When the first Lake Tahoe Restoration Act passed in 2000, 
we had two primary goals in mind. First, we wanted to put a 
stop, to reverse the severe decline in the lake's water 
clarity. Now, see Dianne, you and I when we talk about the 
clarity of the lake, I would have said 70 foot. I would have 
rounded off the 69.6.
    Senator Feinstein. I will buy it.
    [Laughter.]
    Senator Reid. So we have made some headway there.
    Second, we wanted to get high priority hazardous fuels and 
watershed restoration efforts underway. One of the things we 
have done, because that place was logged to death during the 
Comstock and after, there were all kinds of roads for timber 
and those were terribly bad for erosion. That stuff all went 
right into the lake. And we have closed many of those. We have 
wiped those old roads out, and that has been a great step 
forward.
    We have made progress in stopping the decline of the 
water's clarity and get high priority fuels and watershed 
restoration efforts underway. We, and this is good, the Lake 
Tahoe Restoration Act that has been introduced, and we are 
talking about today, makes sure that this critical work will 
continue.
    First, this legislation does a lot more than any that we 
have done to carry existing programs forward. This legislation 
makes science a priority, calls for better management of public 
lands in the Lake Tahoe Basin, and takes aggressive action 
against threats that were simply unthinkable 10 years ago.
    Most notably, quagga and zebra mussels pose a grave danger 
to Lake Tahoe's ecosystem. If these invasive critters make 
their way into Lake Tahoe's water network, much of the work 
that we have done and will do is for naught. As the residents 
of the Great Lakes Region know all too well, when these mussels 
invade, beaches get coated with a sharp crust of shells, native 
fish and plant populations get out-competed for basic nutrient, 
and almost anything that comes into contact with the water gets 
covered with these shells.
    Let me give one just small anecdote with you that 
demonstrates the size of the threat to Lake Tahoe and the 
economies of Nevada and California. Quagga mussels were first 
discovered in Lake Mead in January 2007, 3 years ago. Now, 3 
years later, scientists estimate that there are now 3 
trillion--3 trillion quagga mussels in Lake Mead.
    In order to keep Lake Tahoe from suffering a similar fate, 
this legislation includes $20 million to support an 
unprecedented water craft inspection program. The new 
inspection regime will take some getting used to, but it is 
absolutely essential if we want Lake Tahoe and Lake Tahoe's 
economy to remain vibrant and healthy.
    I want to take a moment to applaud the Federal employees at 
the Lake Tahoe Planning Agency, the counties, the towns, the 
businesses, and the nonprofit organizations that have come 
together to project this majestic corner of the West. We have a 
partnership at Lake Tahoe that works. We have demonstrated over 
the past decade that we know how to pair Federal funding with 
State and private resources to achieve results. What we are 
asking now is for a renewed commitment to Lake Tahoe and for 
the resources to restore and protect this national treasure for 
decades to come.
    Thank you very much.
    Senator Cardin. Thank you, Senator Reid, for your 
testimony. We appreciate it very much.
    Senator Ensign.

            OPENING STATEMENT OF HON. JOHN ENSIGN, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Ensign. Well, thank you, and thank you for holding 
this hearing this morning on the great lakes around our 
country. Lake Tahoe certainly is, those of us who visit 
regularly, is one of the most spectacular, if not the most 
spectacular place in the world. And that is why we put so much 
effort into not only preserving the lake, but actually trying 
to restore it to what it used to be.
    If you go there and just look generally at the lake, it 
looks just as beautiful as it ever did. But it is when you get 
down and you start looking at some of the scientific evidence, 
you realize that there are some grave threats to the lake.
    Madam Chairman, I would ask that my full statement be made 
part of the record, and since a lot of what was in my statement 
has already been covered, I will try to summarize and try to 
move this along as quickly as possible.
    Senator Cardin. Without objection all the statements will 
be included in the record.
    Senator Ensign. First of all, I want to applaud Senator 
Feinstein for her leadership on the original Lake Tahoe 
Restoration Act, and also for leading the way on this one. It 
has been a pleasure to work with her and her staff, and also 
with Senator Reid and Senator Boxer on this most important 
legislation.
    We have made a lot of progress, a lot of scientific 
progress on fuels reduction, on reversing some of the clarity, 
and a lot of the projects around the State. The original Act, 
which authorized $300 million, unfortunately was not fully 
funded. So Senator Reid and I, when we were doing public lands 
bills for Nevada we took some of the proceeds, really the 
proceeds from Southern Nevada, because we know that people in 
Southern Nevada actually love Lake Tahoe as well, and some of 
those proceeds from the land sales in Southern Nevada were put 
toward funding this authorization bill that was passed back in 
the late 1990s, and we funded those projects up at Lake Tahoe.
    Funding came from the State of California. It came from the 
State of Nevada. Some came from the Federal Government, but 
most of the money has now come from the Southern Nevada Public 
Lands Management Act and other lands bills that we have passed 
since that time.
    One of the things that we insisted was that we didn't just 
fund projects that were people's wish lists. That is why we 
have had science back up everything that we have tried to do. 
And in this bill science is going to do the same thing. 
Basically, we try to get as much bang for the buck. We try to 
prove things are actually working, and if not, put the money 
into other things. Because you have very limited resources up 
there, and we have to go after the biggest problems that we can 
possibly go after.
    Point at and reemphasize a couple of points that have been 
made. One is that catastrophic fire is still an incredible 
threat. We saw it with the Angora fire, some of the other fires 
that we have had up there. And you look at a lot of the Western 
forests. We love them so much that we quit putting out forest 
fires for the last 100 years.
    Well, there are more trees in the Lake Tahoe Basin today 
than there were 200 years ago. The problem is that because it 
is a desert forest, the big trees used to be kind of spread 
out, so when the fires would come through naturally and clean 
out the underbrush, you wouldn't have as much fuel buildup. 
Because of putting fires out for so many years, we now have a 
huge build up of fuels.
    And also because these are all second growth because of the 
logging that occurred around the Comstock era, we now have a 
lot of fir trees instead of the big Jeffrey pines and Ponderosa 
pines that we used to have. And these are smaller trees. They 
crowd out, and they get a lot of underbrush growing around 
them. And so when fires happen, the fuel is so intense the 
fires don't burn naturally. They burn much hotter, and they 
literally can sterilize the ground.
    And they also spread much faster than they used to spread, 
so they are a lot more difficult to control. So there is a 
greater threat to buildings, to human lives, to businesses.
    As far as other environmental threats to the lake, 
obviously erosion has been something we have been working on. 
We have made a lot of progress. Still have some work to do 
there. But it was mentioned, these invasive species, both plant 
and animal species, are a tremendous, tremendous threat.
    One of the things that Senator Reid didn't mention about 
the quagga mussels in Lake Mead is that these quagga mussels, 
when they attach, for one thing, to a drinking, like to the 
water pipes that come to Las Vegas to bring our water in, they 
don't just attach to the outside. They literally burrow along 
miles around the pipe in. And so removing them is not an easy 
task.
    And if people say, well, you know, this is California and 
Nevada's problems, we have to remember these are invasive 
species to all of these lakes. These things can spread all over 
the country and would be a grave threat to water bodies all 
over the country. So we need to make sure that this doesn't 
spread from lake to lake to lake around the West and then get 
into other parts of the country as well.
    So Lake Tahoe, first of all, is a national treasure. It 
deserves national attention. And second is that if people are 
concerned about other parts of the country, this needs to be an 
absolute national priority.
    So Senator Feinstein has laid out exactly what the bill is 
going to do. It is something I am completely supportive of. It 
is an absolute priority to get the authorization bill done, 
especially because without the authorization bill we don't have 
the mechanism set up, for instance, for the inspection stations 
that we need for the quagga mussels and to keep other invasive 
species from coming in.
    So thank you very much for holding this hearing, and we 
hope that this legislation can be passed as quickly as 
possible, simply because if these invasive species get in, 
Senator Feinstein mentioned one of them gets in, then it can be 
literally disastrous and very difficult to control. And the 
Asian clam is a perfect example of once it gets in, it is very, 
very difficult to come up with a solution once they are in.
    So thank you very much for holding this hearing.
    [The prepared statement of Senator Ensign was not received 
at time of print.]
    Senator Cardin. Well, as a person who has enjoyed Lake 
Tahoe, let me thank all the Senators from the two States for 
their leadership on this. It is the right model, using good 
science and partnership to try to attack the problem.
    So thank you very much for your testimony.
    Senator Cantwell.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
           U.S. SENATOR FROM THE STATE OF WASHINGTON

    Senator Cantwell. Thank you.
    Thank you, Madam Chair, and thank you, Subcommittee 
Chairman Cardin, for holding this hearing. This is a very 
important hearing on the protecting and preserving and 
restoring great waters of body in the United States, so I 
appreciate it very much.
    And thank you for inviting me to make some comments on my 
Puget Sound Restoration Act. I would also like to thank 
Congressman Dicks and Senator Patty Murray for working on this 
legislation with me. Today, you will also be hearing from Mr. 
David Dicks, the Executive Director of the Puget Sound 
Partnership, which is the State agency dedicated to Puget Sound 
restoration.
    With 2,500 miles of shoreline and 2,800 square miles of 
inland marine waters, Puget Sound is the Nation's second 
largest estuary. The Sound is the cornerstone of the Pacific 
Northwest's identity and at the heart of the region's 
prosperity, promoting thriving marine and natural resource 
industries.
    And it is truly one of America's most spectacular bodies of 
water, home to more than 200 species of fish, 25 kinds of 
marine mammals, 100 species of birds, as well as clams, oysters 
and shrimp.
    But while above the water's surface we see its breathtaking 
natural beauty, the reality is that there are great parts of 
Puget Sound that are not so healthy. Scientists have detected 
low levels of oxygen and increasing concentration of toxic 
substance, which is inadequate for animals that live in the 
Sound, and some of its most iconic residents, species like the 
salmon and orcas, are on the brink of extinction.
    Up to 70 percent of all of its original estuaries and 
wetlands have disappeared, and about 8,700 acres at the bottom 
of Puget Sound are dangerously contaminated. The declining 
health of Puget Sound threatens the economy and economic 
vitality of the Pacific Northwest. That is why Washington 
State's Governor Chris Gregoire, who has testified before this 
Committee several times, has taken steps at the State 
government level to combat this decline by setting up the Puget 
Sound Partnership.
    But now it is time for the U.S. Government to help match 
these efforts with the Environmental Protection Agency taking a 
lead to create the Washington State Program, a comprehensive 
recovery effort for Puget Sound. Already we have launched a 
cooperative effort involving all of the local government 
entities, as well as State and Federal Governments to curtail 
any harmful substances from being introduced into the waters, 
change the unwise industrial and agriculture practices, and 
continue our aggressive research into the causes of pollution 
in the Sound.
    The Puget Sound Recovery Act furthers these efforts by 
establishing the EPA Puget Sound Office in the State of 
Washington and coordinating actions among many Federal agencies 
involved in the clean up, including the Fish and Wildlife 
Service, Park Service, Forest Service, Natural Resources 
Conservation Service, USGS, the Army Corps of Engineers, the 
Departments of Commerce, Defense, Homeland Security and 
Transportation.
    In addition, the bill authorizes up to $125 million in 
annual grants to address the causes of Puget Sound's decline 
and implementing projects to counter these threats.
    Mr. Chairman, what we are trying to accomplish with Puget 
Sound Restoration Act is not a new concept. I know, as a 
resident of the Chesapeake Bay area, you understand in the 
Chesapeake watershed how important this EPA program is and how 
important a clear Federal-State partnership must be if we want 
to accomplish our goals.
    The Chesapeake Bay was the Nation's first estuary targeted 
by Congress for restoration and protection. And since the 
formation of the Chesapeake Bay Program in the 1980s, it has 
served as a model for the effectiveness of cooperation in the 
approach to natural restoration efforts. The Bay Program's 
partnership model has been recognized and emulated, and the 
program has been a success.
    Mr. Chairman, you know that more than 20 years of 
restoration on the Bay have resulted in generally decreasing 
trends in nitrogen and phosphorus pollution levels entering the 
bay, and so that is a very important accomplishment. So this is 
exactly what we are trying to accomplish with Puget Sound as 
well.
    So I thank you, Mr. Chairman, for allowing this bill to be 
part of today's hearing, and I look forward to working with you 
and other members of the Committee on moving this legislation 
forward.
    Thank you.
    Senator Cardin. Well, Senator Cantwell, thank you for your 
testimony. There are many similarities between Puget Sound and 
the Chesapeake. And I think having your own office and bringing 
together the stakeholders so that you have a comprehensive plan 
using the best science information that is available, you can 
make a huge difference.
    The progress made on the Bay, but for the Chesapeake Bay 
Program, we would have seen a degrading of the Bay much worse 
than it ever could have been achieved in what we have been able 
to do. So it has been a great success, but we have a lot more 
to do on the Chesapeake Bay. And I think you are taking in your 
proposal the model that worked with the Bay, and we look 
forward to working with you on your proposal.
    Senator Cantwell. And I think that is why we want to get 
started because we know it takes a long time.
    Senator Cardin. It does. And you have to get the 
partnerships in confidence together.
    Let me turn to Senator Boxer for an introduction, and thank 
you again, Senator Cantwell, for being here.
    Senator Cantwell. Thank you.
    Senator Boxer. As you know, we have votes back and forth, 
so people are going to be coming and going, but don't be 
distracted. It is our world, and it is the way it is.
    Could Patrick Wright raise his hand? Patrick, there you 
are. I just wanted to make sure that I gave you your due as far 
as an introduction.
    Patrick Wright is the Executive Director of the California 
Tahoe Conservancy. I am just introducing you before you speak 
because I have to go vote and do something with the leadership 
conference on the jobs bill. So Patrick Wright is the Executive 
Director of the California Tahoe Conservancy. I can't imagine a 
better job, frankly, an independent State agency within the 
Resources Agency of the State. The California Tahoe Conservancy 
was established to improve water quality in Lake Tahoe, 
preserve the scenic beauty and recreational opportunities of 
the region, provide public access, preserve wildlife habitat 
areas, and manage and restore lands to protect the natural 
environment.
    Prior to his appointment, Mr. Wright served as the first 
Director of the California Bay Delta Authority, where he was 
responsible for overseeing the implementation of the largest 
and most comprehensive water management and ecosystem 
restoration effort in the Nation.
    And correct me if I am wrong on this one, but the Bay Delta 
serves about, what, 24 million people with water. Is that 
right? I even got an eyebrow look. It is hard for people to 
believe what the situation we have there with our water.
    Wright has also served as Resources Agency Deputy 
Secretary, Assistant Secretary for Program Development, and 
Senior Adviser to the Regional Administrator of the 
Environmental Protection Agency, and to the Deputy Secretary of 
the Department of Interior.
    I think it is such a wonderful resume. I want to have the 
chance in case I can't be back to welcome him and to say to him 
and all of you who are here because of your love of these 
amazing bodies of water, we are very, very, very serious about 
moving on these. And I said before about Senator Cardin, when 
he took this Subcommittee chairmanship, he really is someone 
who gets the job done. So I think you can feel good that we are 
going to move on a lot of these things.
    So thank you very, very much.
    Mr. Chairman, what is your situation? You are waiting to be 
relieved?
    Senator Cardin. Senator Merkley is going to be coming back 
momentarily. Senator Merkley wants to introduce the Columbia 
River Basin Initiative. I believe also Senator Gillibrand wants 
to talk about the Long Island Sound Great Waters.
    What we are going to do, with everyone's permission, we are 
going to take a very short recess. I expect that Senator 
Merkley will be back momentarily, who will then reconvene the 
joint full Committee-Subcommittee for the purposes of 
introducing their recommendations for those bodies of water, 
and then we will go directly to the first panel.
    Thank you. We will stand in recess.
    [Recess.]

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley [presiding]. The Committee will come to 
order. We will reconvene the Subcommittee on Water and Wildlife 
and the full Senate Committee on Environment and Public Works.
    Things are a little chaotic with votes. We are going to 
utilize the time that we have. I am going to give a 
presentation on the Columbia Water Basin. At that point, 
Senator Gillibrand may be back, and we will go to her 
testimony, and then hopefully the Committee members will be 
back, and we will turn to the panel.
    So, good morning. I would like to thank the Chair, Senator 
Cardin, for convening this hearing, for including the important 
issue of the threats facing the Columbia River Basin. And I 
will be testifying in support of the Columbia River Restoration 
Act of 2010.
    The Columbia River Basin is the great river system that 
defines the Pacific Northwest. It runs more than 1,200 miles 
from Columbia Lake in British Columbia at its mouth to Astoria, 
Oregon. And its basin drains more than 250,000 acres in seven 
States, including portions of the Yellowstone Plateau, the 
Rocky Mountains, the volcanic Snake River Plain, Hells Canyon, 
which is the deepest canyon in the United States, the salt 
plains and high desert of eastern Oregon and Washington, the 
majestic Columbia River Gorge, and the temperate rainforests 
and volcanic slopes of the Cascade Mountains.
    Its tributaries are the major rivers of the Northwest. The 
Snake River, the longest tributary, runs more than 1,000 miles 
from hear the continental divide in Yellowstone Park in Wyoming 
until it flows into the Columbia in eastern Washington. The 
Clarks Fork is Montana's largest river by volume, draining much 
of western Montana and turning into the Ponderay River in Idaho 
before it flows into the Columbia just across the border in 
Canada.
    The Columbia is also the lifeblood of our Northwest 
economy. It has been the foundation of a trade-based economy 
stretching back thousands of years. Today, it is the 
cornerstone of the region's shipping network, with ports 
dotting the river as far upstream as Lewiston, Idaho, the 
furthest inland seaport in the West. The Columbia, once host to 
the world's largest wild salmon run, is still the foundation of 
much of our fishing industry.
    The Columbia River Basin is the backbone of our energy 
system, with a network of dams that provide the majority of the 
region's electricity. When we talk about major generating 
capacity, we often talk about 100-megawatt or 200-megawatt 
capacity wind farms or 600-megawatt or 800-megawatt coal 
plants. The Grand Coulee Dam in central Washington on the 
Columbia, by itself, has a capacity of 6,800 megawatts. And it 
was the availability of low cost power that brought the 
industrial area to the Northwest and brought a host of benefits 
from rural electrification to irrigation.
    And you all might recall that the Columbia River in many 
aspects was memorialized in the 1940s by songs by Woody 
Guthrie. I am told that he wrote 17 songs that touched on the 
Columbia, but the one that every Northwest school child learned 
was Roll On, Columbia. So it is deeply embedded in our culture 
as well as our economy. About 4 million acres of income 
producing farm and ranch land across the Pacific Northwest are 
irrigated by the Columbia River, contributing $10 billion to 
our economy every year.
    Unfortunately, this great river basin faces serious 
challenges. Our rivers are severely polluted. EPA's Columbia 
River Basin Fish Contaminant Survey found 92 toxic pollutants 
in the tissue of fish in the basin. I am going to ask my team 
to put up the first chart. As this first chart shows, one of 
the toxic pollutants found in fish across the basin is mercury, 
and at serious levels. Each of the red and yellow dots 
represents samples that exceeded EPA's human health guideline.
    A second chart shows widespread and even more serious 
contamination by DDT. Now, it is measured by DDE, which is a 
breakdown product of DDT. DDT was banned in the 1970s, but you 
can see that high levels of contamination still persist in many 
parts of the basin.
    Indian tribes have made this basin their home for thousands 
of years, including the Warm Springs, the Nez Perce, the 
Umatilla, the Yakima. And they are among the most affected. A 
survey conducted by the Columbia River Intertribal Fish 
Commission found that tribal members consumed between 6 and 10 
times as much fish as the national average, as this chart 
shows. High consumption rates existed among all tribal members 
consuming fish as well as among specific high risk groups 
including breastfeeding women. And of course the salmon and 
steelhead upon which the tribes and also the fishing 
communities of the Northwest have so long depended are in 
serious decline.
    The good news is that stakeholders across the region are 
working to clean up and restore the river. Since being added to 
the National Estuary Program, a robust partnership involving 28 
cities, nine counties, the States of Oregon and Washington, has 
come together to coordinate habitat restoration and toxic 
contamination reduction. The EPA has coordinated stakeholders 
throughout the basin, including the States of Idaho and Montana 
and tribal governments, working to improve toxic pollution 
monitoring and working to reduce and clean up contamination.
    But more needs to be done. While EPA has designated the 
Columbia River Basin as one of the Nation's great water bodies, 
and has an active program in the basin, the Columbia River 
Basin is the only one of these great water bodies that doesn't 
receive designated appropriations to support restoration.
    Unlike the Chesapeake Bay and the Great Lakes, where 
Congress has directed comprehensive restoration programs, the 
Columbia River Basin has no such program. It is in this context 
that I introduced yesterday, along with colleagues from the 
Northwest, the Columbia River Restoration Act of 2010. The bill 
directs EPA to coordinate restoration efforts consistent with 
restoration and toxics reduction actions plans and to 
coordinate and fund projects to implement those plans.
    And I look forward to hearing today from the EPA and from a 
witness from the region on the challenges facing our river and 
its basin, and I look forward to working with them as well as 
with my colleagues on this Committee and throughout the region, 
to consider this bill.
    [The referenced information follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
    Senator Merkley. So we are going ahead and call up the 
first panel, Hon. Peter Silva, Assistant Administrator for 
Water, U.S. Environmental Protection Agency. And I would ask 
that he be joined by Hon. Harris D. Sherman, Under Secretary 
for Natural Resources and Environment, United States Department 
of Agriculture.
    And while they are taking their seats, I will add a little 
bit more introduction. Mr. Silva has over 32 years of public 
sector experience in the water and wastewater fields, with 
extensive knowledge of U.S.-Mexico border issues. Prior to 
joining EPA, he was a Senior Policy Adviser on the Lower 
Colorado River issues for the Metropolitan Water District of 
Southern California. Before that, he served for 6 years as the 
Vice Chair of the California Water Resources Control Board, 
having been appointed by both Governors Davis and Governor 
Schwarzenegger.
    The Honorable Harris D. Sherman, before joining USDA, from 
2007 until he was confirmed by the U.S. Senate for this 
position, he served as the Executive Director of Colorado's 
Department of Natural Resources under Colorado Governor Bill 
Ritter. During that time, he also served as Director of Compact 
Negotiations for the Colorado Interbasin Commission, Chair of 
the Colorado Oil and Gas Commission, and Co-Chair of the 
Governor's Forest Health Advisory Council.
    Previously, in an earlier point in his career, he also 
served as Director of Colorado's Department of Natural 
Resources under then-Colorado Governor Richard Lamm.
    Welcome to both of you. We are looking forward to your 
testimony.

 STATEMENT OF HON. PETER S. SILVA, ASSISTANT ADMINISTRATOR FOR 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Silva. Good morning, Mr. Chairman, members of the 
Committee, I am Peter Silva, Assistant Administrator for the 
Office of Water at EPA. Thank you for the opportunity to 
discuss EPA's programs addressing these large aquatic 
ecosystems.
    We have known long that large aquatic ecosystems are among 
the most ecologically valuable and productive areas on Earth. 
These ecosystems foster a wonderful abundance and diversity of 
wildlife, like sea and shore birds, fish, marine mammals and 
shellfish. Our estuaries and rivers function as feeding, 
spawning and nursery grounds for many marine and terrestrial 
finfish, shellfish, birds and plants, supporting unique 
communities that are especially adapted for the life on the 
margin of the sea.
    These areas are also dynamic economic engines for many 
industries vital to the Nation, including sport and commercial 
fisheries, agriculture, transportation, recreation and power 
generation.
    However, many of these same activities have disrupted 
natural processes and impaired water quality, in some areas to 
the point where human health is at risk. And these ecosystems 
and the plants and animals that depend on them are threatened.
    EPA has long recognized the importance of improved 
protection of the Nation's large aquatic ecosystems. We support 
the National Academy of Public Administration recommendation of 
``making large scale ecosystem restoration a national 
priority.''
    The EPA strategic plan of 2006 to 2011 provides for a 
significantly expanded effort to protect large aquatic 
ecosystems as a complement to the implementation of core 
national water quality programs. These large ecosystem programs 
are addressing some of the Nation's most complex water resource 
management challenges such as nutrient loading, stormwater 
overflow, and toxic sediments.
    The plan describes environmental goals for each large 
aquatic ecosystem and measures that EPA is using to monitor 
progress toward these goals. The EPA Office of Water recently 
established a National Council of Large Aquatic Ecosystems to 
work with EPA to better support and promote efforts to protect 
these large aquatic ecosystems.
    Key goals of the council are to encourage exchange of best 
management practices, improve coordination among these large 
programs and core national programs, strengthen links between 
ecosystem programs and the EPA strategic plan and budget, and 
focus EPA research on the top priority needs of the ecosystems.
    I will only focus very briefly on the ecosystems, as has 
already been mentioned, by and large. First, the Columbia River 
Basin, the goal of this basin program is to protect public 
health and the environment by reducing toxics in fish, water 
and sediment and implementing a collaborative monitoring and 
research strategy to understand toxic loads, emerging 
contaminants and overall ecosystem health.
    For the Great Lakes, the Great Lakes have been degraded for 
many years due to toxics, wetlands degradation, land use 
changes, invasive species and pollution from antiquated sewer 
systems. EPA is coordinating the President's Great Lake 
Restoration Initiative across Federal agencies to fund the 
highest priority activities under the Great Lakes Restoration 
Initiative action plan.
    For Lake Tahoe, you have heard a lot of discussion about 
that. It is designated a national resource water under the 
Clean Water Act. Lake Tahoe Basin continues to be threatened, 
however, by impacts of land use and transportation patterns, 
invasive species and other factors. The EPA and its partners 
are working to implement measures to address these threats.
    Long Island Sound is a cooperative effort to restore and 
protect the Sound, implementing specific amendments to improve 
water quality, protect habitat of living resources, educate and 
involve the public, improve the long-term understanding of how 
to manage the Sound, monitor progress and apply adaptive 
management.
    For the Puget Sound, the Puget Sound-Georgia Basin, a large 
aquatic ecosystem in Washington State and British Columbia, is 
one of the most ecologically diverse ecosystems in North 
America. EPA is focusing on several interrelated efforts 
including participating in the Puget Sound Partnership with 
Washington State, interagency coordination at the Federal 
level, trans-boundary coordination with Canada, and 
implementing EPA's relevant programmatic authorities.
    Just last, I want to just cover our relationship with the 
National Estuary Program. This program was established by 
section 320 of the Clean Water Act Amendments of 1987, with a 
mission to protect and restore nationally significant 
estuaries. The NEP currently includes 28 programs. Two of the 
NEPs are co-located with LAEs I have discussed today, Lower 
Columbia River Estuary Partnership and Puget Sound Partnership.
    I would urge that both the Columbia River Basin and the 
Puget Sound bills be carefully reviewed to assure they do not 
duplicate existing NEP efforts.
    Just in conclusion, the programs we discuss in this 
testimony are critical parts of EPA's clean water strategy. 
They are effective, efficient and collaborative, and they have 
demonstrated the value of partnering to achieve environmental 
results. I look forward to working with you on maintaining and 
enhancing these important programs.
    Thank you very much.
    [The prepared statement of Mr. Silva follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    Senator Merkley. Thank you. We greatly appreciate your 
testimony. And rather than break for questions at this point, 
we will proceed to the testimony of Mr. Sherman.
    Welcome.

   STATEMENT OF HON. HARRIS D. SHERMAN, UNDER SECRETARY FOR 
     NATURAL RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Sherman. Thank you, Senator Merkley.
    I am Harris Sherman, the Under Secretary for Natural 
Resources and the Environment at USDA. Senator, I appreciate 
the opportunity to be here and to testify on S. 2724.
    I don't want to repeat what the other witnesses have said, 
but I do want to reiterate the just extraordinary nature of 
Lake Tahoe and the surrounding national forest. They are truly 
national treasures, and they deserve our protection.
    This area has been subject to impacts from land 
disturbances both on public and private lands from changes in 
transportation patterns and from changing climatic conditions. 
The Administration supports 2724, a bill, in our view, that 
carefully aligns with what Secretary Vilsack has expressed in 
his national vision for America's forests. The Secretary's 
vision acknowledges the need for a complete commitment to 
forest restoration through an all lands approach. And the 
Secretary has also frequently spoken and recognized the 
importance of healthy forests to protect clean water.
    So this all out approach to successfully managing these 
lands adjacent to and surrounding Lake Tahoe we believe has 
been successful over the past 10 years, and we need to continue 
moving forward with this effort.
    So this bill does continue funding, planning and 
implementation of significant environmental restoration and 
forest management activities. The bill specifically provides 
for a $415 million Federal share over an 8-year period which 
will go to improving water clarity and quality, reducing the 
threat of catastrophic wildfires, improving the environment and 
combating invasive species.
    Some of the highlights--at least from the perspective of 
the Forest Service--are the following. First, the bill would 
authorize 
$136 million for fire risk reduction and reforestation. Of that 
amount, at least $80 million will be made available to the 
Forest Service to treat hazardous fuels, and a portion of the 
$136 million may also be used for the Angora fire restoration 
projects.
    I brought with me a few examples, before and after examples 
of the types of projects which can occur under this bill. 
First, there is an example of a fuels reduction project that 
would be funded under section 6 or section 8 of the bill. As 
the before and after nature of these photographs indicate, 
these projects can be very, very helpful, particularly in the 
wildland-urban interface areas. What you are seeing here is 
consistent with the Lake Tahoe multi-jurisdictional fuel 
reduction and wildfire prevention strategy.
    The bill would also authorize $136 million for a wide 
variety of environmental restoration projects such as watershed 
and habitat enhancement. In the next before and after photos, 
you will see the Big Meadow Creek-Cookhouse Meadow restoration 
project. This deals with erosion control and shows how we, by 
engaging in these activities, can partially address the Lake 
Tahoe total maximum daily load allocations adopted under the 
Federal Water Pollution Control Act.
    The third set of before and after photos shows the 
Blackwood Creek Bridge replacement project. This shows that you 
can allow water from a creek to flow more freely underneath 
these structures, and it results in a reduction of fine 
sediment and nutrients, which would eventually flow into Lake 
Tahoe.
    And under the 2000 Act, we have been administering a 
variety of local erosion control grant programs. We offer to 
continue that administrative role for erosion control under S. 
2724.
    The last set of photos here show before and after displays 
at the Apalachee erosion control project, which is one of some 
120 such grants that we have been part of over the past 9 
years. This project reduces the amount of erosion spreads, 
water flows and checks stormwaters by constructing a pipe 
outflow with a flared end section.
    As a result of these types of projects and other priority 
work conducted in the Lake Tahoe Basin, the rate of decline in 
water clarity of the lake is decreasing. Thousands of acres of 
forest land have been enhanced. Roads and highways across the 
basin have been improved to limit runoff, and the natural 
function of many miles of stream zones and riparian areas has 
been restored.
    We appreciate and embrace the roles assigned to Secretary 
Vilsack as we continue to complete ongoing and new restoration 
activities as well as strategically addressing new 
environmental challenges such as aquatic invasive species that 
threaten Lake Tahoe and surrounding waters.
    In conclusion, this bill would build upon the success of 
the past 10 years. The Administration remains committed to 
restoring the health and resiliency of the Lake Tahoe Basin. We 
will continue to implement a program that serves the community, 
economy and the environment.
    Thank you very much.
    [The prepared statement of Mr. Sherman follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Cardin [presiding]. Let me thank both of you for 
your testimony. And again, we apologize for the fact that as 
this hearing is going forward there are votes that are taking 
place on the Senate floor, and that is the reason why you see 
the Members coming in and out. So we appreciate your 
understanding and your patience as we move forward on this very 
important hearing. We do have a lot of witnesses, and we want 
to make sure that the record is complete.
    Mr. Silva, I want to ask you first, just if we could, does 
the Administration support the S. 2724, the Lake Tahoe 
Restoration Act, and S. 2739, the Puget Sound Recovery Act of 
2009? We have specific bills that have been filed, so we are 
interested in whether the Administration supports these bills, 
feel that they can be improved or modified or want to express 
concerns.
    Mr. Silva. Yes, Mr. Chairman, thank you very much.
    We have looked at the bills that have come out. We 
understand they are still in process. We see some good things 
that we like. I mean, obviously, Lake Tahoe, I can tell you, I 
am from California. I have been there many times, and I agree 
with the Senator, it is a treasure there in California.
    And we do support, especially in Lake Tahoe, the items that 
have been discussed already at length. One component I think 
that we are very pleased about is that our understanding of the 
bill is it would incorporate TMDLs into the region as a tool to 
drive some of these needed improvements in the area, so we very 
much like that component of the bill. And I will just leave it 
at that.
    With respect to, I believe, the Puget Sound, we also--if I 
could, we also just have a draft right now at this point, and 
there are a couple of things that we like. I can tell you that 
we want to continue to working on the bill. There are some 
things that we see just in terms of working with the local 
governance and how EPA would work with the existing governance 
on the ground.
    But again, with respect to funding, we feel that that is 
obviously very necessary in the Puget Sound area. But again, we 
just want to continue working with you more on the governance 
part of the bill.
    Senator Cardin. Let me follow up just on that. You mention 
Puget Sound. First of all, if there are specific suggestions 
you have, we just urge you to work with the Senators who are 
sponsoring these bills. The schedule here is unclear as to when 
we are likely to take up legislation, but we want to make sure 
that the Administration's views are well known prior to our 
acting on these bills. So if you could work with the Senators 
involved so that we at least don't have a slowdown because of 
drafting issues.
    Mr. Silva. No, no at all. We would be very happy to 
continue working with you on that, on those issues.
    Senator Cardin. Thank you.
    In regards to the Great Lakes Interagency Task Force, do 
you see a benefit in the authorization of that initiative?
    Mr. Silva. Mr. Chairman, if I could, I have Cam Davis here 
with me today. He's a Senior Advisor to the Administrator for 
Great Lakes, and he could answer that question much better than 
I could, if he could, Mr. Chairman.
    Senator Cardin. Certainly.
    Mr. Silva. Thank you.
    Mr. Davis. Thank you, Chairman Cardin. My name is Cameron 
Davis, Senior Adviser to EPA Administrator Lisa Jackson on 
Great Lakes issues.
    The Interagency Task Force was created by Executive Order 
several years ago and has been very good. It has been very 
functional. I think we would like to see the functionality of 
it preserved for purposes of Great Lakes decisionmaking.
    Senator Cardin. Thank you.
    I want to go back to Puget Sound for one moment because I 
am concerned about the appropriated funds under S. 2739. Fifty 
percent go directly to the Puget Sound Partnership. Is there a 
concern as to whether there is sufficient accountability in how 
those Federal funds would be used? There is no specific 
oversight spelled out in the statute. If you are not prepared 
to answer that now, that is fine, but I would like you to be 
able to come back to this Committee in regards to whether there 
is adequate accountability in the appropriation of funds.
    Mr. Silva. Yes, Mr. Chairman. Overall as we look at all 
these great water bodies, as we see increased funding, that is 
something we are looking at in terms of having better 
coordination of these efforts and how the money is spent and 
tracking the funding. So we would be happy to do that.
    Senator Cardin. I appreciate that.
    Mr. Sherman, the Federal efforts to restore Lake Tahoe 
began in a coordinated manner in 1997 following President 
Clinton's Executive Order establishing the Lake Tahoe Federal 
Interagency Partnership legislation, including the Lake Tahoe 
Restoration Act and the Southern Nevada Public Lands Management 
Act provided additional support for Federal restoration 
efforts.
    What have been the key successes of that effort over the 
past 12 years? And can we build on those successes as we look 
to reauthorize the Lake Tahoe Restoration Act?
    Mr. Sherman. Senator, as I think a number of the earlier 
testimonies indicated, there has been significant progress made 
in terms of improving the clarity of the lake, the water 
quality of the lake, dealing with erosion control projects 
which cut down on sediments that were going into the lake. And 
we have done an enormous amount of work on the surrounding 
forest to try to reduce fuel buildup there, to increase the 
diversity and the health of the forest, all of which translates 
to helping water quality.
    But I think the important thing is we need to keep this 
effort going. This needs to be a long-term sustained effort. 
And I am hopeful that through this bill there will be adequate 
flexibility to address emerging or growing challenges as we go 
forward.
    But I think the structure of the bill and I think the past 
efforts that we had should serve this region well. The key 
problem we always have is having adequate resources to deal 
with this. And hopefully through these authorizations and 
subsequent appropriations the resources will be there to 
address these challenges.
    Senator Cardin. There is no question that resources are a 
key issue. I can speak first-hand in regards to the Chesapeake 
Bay Program. I am wondering whether--the effort being made here 
on each on these great water bodies is critically important. 
Each one is important to its region and has national 
significance. I certainly applaud the efforts being made to in 
some cases codify the Federal partnership, in other cases 
reauthorize and expand.
    Do we have any common themes that we should be looking to 
as we advance authorization for Federal partnerships with these 
programs? Some are requesting specific offices. Others are 
suggesting funding levels with more flexibility. Some have 
stronger expectation for enforcement than others, with giving 
tools for enforcement. Some just really want Federal money, I 
guess the image of having Federal legislation to protect the 
body of water.
    Are there some common elements that we should be working 
toward and establishing how the Federal Government participates 
in a significant body of water?
    Mr. Sherman. I can give you a couple of thoughts off the 
top of my head and follow it up with some written comments. I 
mean, one of the things that strikes me we need to really push 
with is collaboration. We have got to have collaboration with 
local stakeholders because with collaboration you can get the 
work done. You can avoid litigation and things like that. So I 
think collaboration is just essential.
    I think that coordination between the different levels of 
government is critical here. Lake Tahoe is a great example of 
how the Federal Government has worked with the States of Nevada 
and California and worked with local and regional entities to 
collectively make these things happen.
    So coordination and collaboration are important. Secretary 
Vilsack, as I mentioned in my testimony, has also talked about 
this all lands approach, at least from the Federal perspective. 
We can't just focus on Federal land. We have to focus on the 
relationship of Federal land to private lands and to State 
lands. So the all lands approach is important.
    And I think, then, these issues protecting water bodies, at 
least from my perspective, often the link between forest health 
and protection of water quality has not always been there. I 
mean, but that is a critical link. If we have healthy forests, 
that goes a long way to protecting the water resources that we 
will need in this country.
    There are approximately 100 million people in the United 
States who get their water from the national forests. And if we 
have catastrophic fires on our national forest, or we have 
forests that are not productive, we will have severe water 
quality problems.
    So we have got to work very hard to protect the health of 
our forests, and that in turn obviously protects the clarity 
and the clean water nature that we are striving for.
    Senator Cardin. Mr. Silva, do you want to add anything to 
that?
    Mr. Silva. Yes. I just want to say in terms of these 
programs that we see--you see, most of them started at the 
National Estuary Program, you know, very, very localized. A lot 
of them, as you know, have multi-State jurisdictional issues. 
So a lot of them started really at the State level as local 
programs.
    I think as they developed and the Federal Government came 
in to support those efforts, and so certainly when the Federal 
Government comes in, we have to be cognizant of the fact that 
they have been there for a while. These programs have existed 
in many cases for a number of years. And so when we come in--I 
mean, I think the Federal part of it is the coordination at the 
Federal level. Federal agencies are involved. With that 
hopefully comes funding that can be used at the ground level.
    I think once you get the funding, though, I think it is 
very important to establish good science and track the progress 
of those efforts; perhaps make adjustments as you are moving 
forward.
    As you know, on the Chesapeake Bay, one of the key things 
is regulation. I mean at some point, you have to say OK, we 
have got funding. We know what we have to do. Let's go forward 
and do it. And sometimes it is not easy because you don't have 
the right regulatory tools in place.
    But as I see it, I mean, all of these efforts, as I see it, 
have that in common. They start locally, the Federal Government 
comes in, provides assistance with funding. But again, once you 
get that funding, I think it is critical again to track the 
progress and really see how the funding is spent. And then if 
you are making progress, hopefully you can transfer it to other 
efforts in other parts of the country.
    Senator Cardin. Well, one of the things I am going to ask 
that we work collectively on, and that is between our Committee 
and the Agency, to have expectations of what we expect in these 
programs starting at the first levels for Federal 
participation.
    I think, Mr. Sherman, when you say collaboration and 
coordination, I couldn't agree with you more. I think back 
about the Chesapeake Bay and that its signature was that we had 
all levels of government. We had the private sector. We had all 
the stakeholders that were involved in the process. So there 
was a buy-in, basically, and an open process.
    I think all lands are important. I interpret that to mean 
that if you don't have all of the watershed jurisdictions 
included in the program, then you really don't have a 
comprehensive plan, and then I am not sure you are eligible for 
elevation for Federal partnership. So I think it needs to 
include all of the geographical areas that impact the 
watershed.
    I appreciate what you said about the forest lands. That is 
absolutely true in the Chesapeake Bay watershed. The loss of 
the forest lands has been a huge problem, and the relationship 
between a healthy forest. I thought Senator Ensign's point 
about Lake Tahoe was a very telling point as the forestry has 
changed. It has gotten thicker. Well, thicker didn't 
necessarily mean better. So I think that is an important point.
    And then, Mr. Silva, I couldn't agree with you more that 
you need to have accountability here somewhere. I mean, we are 
struggling with that in the Chesapeake Bay Program, as you 
know. And we appreciate the fact that the TMDL tool is being 
requested in Lake Tahoe.
    Mr. Silva. Lake Tahoe.
    Senator Cardin. That gives us at least a tool to be able to 
measure accountability and where we are heading. And of course 
in the Chesapeake Bay Program, we had that by court order, but 
we also had that as an effort in the restoration bill that has 
been filed by Senator Carper and myself and Senator Mikulski.
    So I think we need to start looking at different levels and 
where, when you request Federal participation, whether it is 
the concentration of a Federal agency that will be responsible 
for that body of water, or whether it is Federal funding; there 
is an expectation that certain standards need to be met. And I 
think that might be helpful. Rather than having four or five 
different models out there, I think we can learn from what has 
been done in the past.
    So I would just urge us to try to put that together as we 
move forward with the different legislative approaches on 
either reauthorizing or establishing a Federal partnership with 
water bodies in this country, significant water bodies in this 
country.
    With that, thank you all very much. I appreciate your 
testimony.
    We are now going to go to our second panel, where we have 
many of the expertise in regards to the specific bodies of 
water that have been the subject of this hearing: Patrick 
Wright, who has already been introduced, the Executive Director 
of the California Tahoe Conservancy; David Dicks, who is the 
Executive Director of the Puget Sound Partnership; Alexander 
``Pete'' Grannis, Commissioner, New York State Department of 
Environmental Conservation; Debrah Marriott, the Executive 
Director of the Lower Columbia River Estuary Partnership; David 
Naftzger, Executive Director, Council of Great Lakes Governors; 
John Tauzel, Senior Associate Director of Public Policy, the 
New York Farm Bureau; and David Ullrich, Executive Director, 
Great Lakes and St. Lawrence Cities Initiative.
    I think we are at the maximum size of a panel since the 
table would not hold more people. So we welcome you all here. 
Obviously, this is a very important hearing for the Committee, 
and we value your testimony, and we thank you very much for 
your patience in waiting for the panel to be called.
    I am going to ask that you speak in the order in which I 
introduced you. Your entire statements will be made part of the 
record. You may proceed as you wish, starting with Mr. Wright.

  STATEMENT OF PATRICK WRIGHT, EXECUTIVE DIRECTOR, CALIFORNIA 
                       TAHOE CONSERVANCY

    Mr. Wright. Thank you, Senator Cardin, for inviting me here 
today to speak on behalf of the Lake Tahoe community. And in 
particular I want to thank Senators Boxer, Reid, Feinstein and 
Ensign for their strong bipartisan support in moving the Tahoe 
bill forward.
    Clearly, like many of the other water bodies you are 
hearing from today, Lake Tahoe needs no introduction. It is 
truly one of the great water bodies of both the Nation and the 
world. But as you have heard repeatedly this morning, it has 
had its fair share of challenges, from runoff that clouds its 
fabled lake clarity to overstocked forests that threaten local 
communities.
    And now we are faced with a brand new set of challenges in 
the basin, including the potentially devastating impact of 
aquatic invasive species and the already well documented 
impacts of climate change in the basin.
    Fortunately, however, we are beginning to build a very 
strong track record in the basin in addressing these issues, 
and the Lake Tahoe Restoration Act is the key to building upon 
that success. As my written testimony describes in more detail, 
we have come a long way in the 10 years since the first Lake 
Tahoe Restoration Act was authorized in 2000.
    First, we have built a very strong bipartisan coalition at 
the local, State and Federal levels in support of our 
restoration plan. Second, we have managed to secure significant 
levels of non-Federal money. Together, State, local and even 
private investments have totaled over $1 billion to match 
Federal levels of spending over the last decade.
    And third, we have developed a detailed, comprehensive 
restoration plan backed by very highly advanced scientific 
tools, driven by the EPA's TMDL process, to pinpoint the key 
causes that affect lake clarity in the basin and the highest 
priority projects that will help turn the corner.
    And finally and most important, we are getting projects 
done on the ground, and in doing so have managed to stabilize 
lake clarity in recent years after decades of fairly steep 
declines.
    The Lake Tahoe Restoration Act we hope will provide the 
Federal leadership and funding to maintain the strong 
partnership and the bipartisan support behind it. It authorizes 
$415 million for our highest priority projects.
    Three Federal agencies are specifically singled out in the 
bill. The Forest Service, as the owner of over 75 percent of 
the land in the basin, has a special role in maintaining the 
health of its forests.
    U.S. EPA has a key role, first in overseeing the basin's 
water quality plan, one of the most ambitious and successful in 
the Nation. And the U.S. Fish and Wildlife Service for its 
oversight of the Tahoe Regional Planning Agency's highly, 
highly important and aggressive effort to protect the basin 
against the spread of aquatic invasive species.
    So in summary, the Tahoe Basin has all of those key 
elements that you mentioned that make these large scale 
restoration projects a success. We have a collaborative effort. 
We have good coordination among all the State, Federal and 
local agencies. We have a world class science program. We have 
a planning and tracking system that provides the accountability 
that all of our funders are looking for. And we have broad 
based public support in the basin.
    And finally, I want to point out that the Lake Tahoe 
Restoration Act is not just an environmental bill. It is a jobs 
bill. It is an opportunity to not only protect an irreplaceable 
national asset, but to launch a new generation of projects that 
will be a model for sustainable development in an area that has 
been hit very hard by the recession. This bill is essential, 
therefore, to maintain the health of both the environment and 
the economy of the Lake Tahoe Basin.
    And finally, I want to add, in response to Senator Boxer's 
very gracious comments and introduction, that like many of my 
colleagues here, I do have a great job, and I have a great job 
because of the incredible partnership that we have built in the 
Tahoe Basin to move this program forward. I am joined here 
today, for example, by Joanne Marchetta, the Executive Director 
of the Tahoe Regional Planning Agency, which was the Nation's 
first bi-State planning agency. In fact, it was founded on the 
very concept of bringing together a broad array of Federal 
agencies, two States, five counties, dozens of local 
jurisdictions who normally don't see eye to eye on anything, to 
come together in support of a comprehensive plan to protect 
this national treasure.
    So I am delighted to be here on behalf of the whole Tahoe 
community to express our very strong support and appreciate 
your leadership in moving the bill forward.
    [The prepared statement of Mr. Wright follows:]
    
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Senator Cardin. Well, we thank you very much for your 
testimony. And without objection, we are going to enter into 
the record letters and statements of support from the Tahoe 
Regional Planning Agency, Tahoe Fire Chiefs, the League to Save 
Lake Tahoe, Governor Schwarzenegger, and Senator John J. Lee, 
Nevada Senate.
    [The referenced information was not received at time of 
print.]
    Senator Cardin. With that, we will go to Mr. Dicks.

         STATEMENT OF DAVID DICKS, EXECUTIVE DIRECTOR, 
                    PUGET SOUND PARTNERSHIP

    Mr. Dicks. Thank you, Mr. Chairman. Nice to see you.
    My name is David Dicks. I am the Executive Director of the 
Puget Sound Partnership, a State agency formed in 2007 
explicitly to try to restore and protect Puget Sound and get it 
back in good shape by 2020.
    Senator Cantwell I want to thank especially, and I just 
want to point out that I think she has covered most of the 
beauty of Puget Sound, obviously, one of the great water 
bodies. I hope we are not starting a competition here between 
all these great places.
    Senator Cardin. Competition is good.
    [Laughter.]
    Mr. Dicks. My in-laws have a cabin in Truckee near Lake 
Tahoe, so they are all important, and I hope we, as you were 
alluding to, Senator, that we focus on the commonalities in 
some cases and allow for the varying ability in the various 
places as we go forward with all of these proposals.
    As you know, the Puget Sound Recovery Act is before this 
Committee, and I want to quickly kind of run through why I 
think this is important for Puget Sound and what we are hoping 
to achieve with it.
    Importantly for us, we have done a lot of work that is 
similar to the great work you have done in the Chesapeake Bay 
in the last few years. Governor Gregoire, who is my boss, when 
she first came into office in 2005 looked around and basically 
realized that the Puget Sound effort was not going well. We had 
listed species of salmon, orca whales, now rockfish and other 
important species being listed, and there was a huge amount of 
concern that we simply weren't going to get to the finish line 
with Puget Sound. There was a real risk that we could lose it.
    She appointed a blue ribbon panel which as chaired by Bill 
Ruckelshaus, who basically came to two fundamental conclusions. 
The first was that the Sound was in significant decline. And 
the second was that we were not operating at the right scale to 
deal with it. That has now essentially been remedied with the 
creation of the Puget Sound Partnership.
    In 2 and a half years, we have done a couple of things that 
I think are important to point out. The first one is we have 
developed a single, unified, comprehensive plan that has 
priorities, that has very significant science underpinning. And 
it tries to do essentially four things.
    The first is to restore places where we can truly recreate 
ecosystem function. That is kind of a wonky way of saying 
bigger places or linked projects where we can really make a 
difference. We need to get away from random acts of restoration 
and instead focus on very concrete things that we know 
scientifically will make a big difference. A lot of that is 
going on. The Recovery Act has done a ton on that; $160 million 
into Puget Sound, for example, through the stimulus package, 
which has been incredible.
    The second major strategy is to protect the best remaining 
places that are left in Puget Sound. Puget Sound has a lot of 
variability. It is not monolithic. Some places are extremely 
healthy. Other places are extremely unhealthy. To make sure 
that we don't lose any more ground we have to protect the best 
remaining places.
    The third big strategy in the action agenda is to stop as 
much additional contamination from getting into the water in 
the first place. We have done a lot with clean ups through the 
CERCLA and our State Superfund law, but we really need to get 
upstream and start dealing with stormwater and other runoff in 
a very meaningful way. That is crucial.
    And the fourth piece of the puzzle is to what we loosely 
call fix the system. In other words, try to align all the 
governmental actors--in our case, that involves about 2,500 
jurisdictions--around the plan. We think that the concept of 
getting coordinated in a generic sense is not workable. We hope 
that with the plan being in existence, ranked prioritized lists 
of specific projects and policies, we can get the individual 
agencies to come, take their piece of the puzzle, and go off in 
an autonomous way, but all linked to one unified plan. That is 
I think the trick of the action agenda.
    The last piece here, two quick other points. The other 
factor which you mentioned vis-a-vis the accountability piece. 
We are in the process of building. We learned a lot from your 
guys at Lake Tahoe, by the way. What we are hoping is to be the 
best in class accountability and performance management system. 
That has two components to it.
    The first is we need to be able to account for the money 
that is being spent, to make sure that the people signing up to 
do a project actually do it. That is part one. And more 
importantly in some ways are the projects themselves making a 
difference to improve the quality of the Sound. That latter 
piece involves monitoring and adaptive management. That is a 
crucial factor and what we are trying to really push forward 
with the Puget Sound Partnership.
    The final piece, and I think Administrator Jackson was out 
in the region a couple weeks ago and made this point I think 
quite strongly. We have got to refigure out a way to engage the 
public in a meaningful way. We have done a lot on this. One of 
the important things about the action agenda is that the entire 
region bought off on it on the specific ranked list of 
priorities, which is pretty remarkable because in some cases 
people said, you know what? That other project in your area is 
more important than my project. That is the kind of dynamic 
that we have been able to create, and we hope to continue by 
getting the public even more engaged in their daily lives to 
protect Puget Sound.
    So with that, I would be glad to take any questions, and I 
thank you for holding this hearing and look forward to working 
with you on our bill and all the other important bills around 
the country.
    [The prepared statement of Mr. Dicks follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    Senator Cardin. Well, we thank you for your testimony.
    Without objection, Senator Gillibrand's opening statement 
will be included in the record.
    [The prepared statement of Senator Gillibrand follows:]

                 Statement of Hon. Kirsten Gillibrand, 
                U.S. Senator from the State of New York

    Thank you, Chairman Cardin, for holding this very important 
hearing and for the opportunity to speak on these issues that 
are so important to my home State.
    I am also very thankful to have New York so well 
represented on today's witness list.
    First I want to recognize the Commissioner of New York 
State's Department of Environmental Conservation--Alexander 
Grannis. I also want to welcome another New Yorker, John 
Tauzel, Senior Associate Director of Public Policy for the New 
York Farm Bureau.
    I want to thank both of you--and all of our witnesses--for 
being here today to share your expert testimony on these 
critical issues.
    Mr. Chairman, today's hearing is but a snapshot of some of 
America's greatest natural resources. As Senator from the State 
of New York, I am proud to represent some of the Nation's 
premier water bodies--areas not just known for their natural 
beauty, but for their critical economic importance to our 
regions and the country.
    With Lake Erie and Lake Ontario on our western border, the 
St. Lawrence River to the north, Lake Champlain, the Hudson 
River, the Finger Lakes, the Susquehanna and Delaware River 
Basins, Long Island Sound and the Atlantic Ocean along our 
South Shore--New York's water resources have been critical for 
over four centuries, when Henry Hudson first sailed north on 
the waterway that now bears his name.
    Today I would like to highlight one of these many important 
water bodies--the Long Island Sound. The Long Island Sound is 
home to more than 8 million coastal residents, and more than 20 
million live within 50 miles. The Sound contributes more than 
$5.5 billion to the region's economy from boating, sport and 
commercial fishing, to recreation and tourism.
    From Great Neck to Greenport, the communities along the 
Long Island Sound have for centuries relied on its waters as a 
major source of economic opportunity--with rich stocks of fish 
like flounder and striped bass, as well as scallops, lobster 
and of course oysters--spurring growth across Long Island.
    Development in the region removed much of the natural 
barriers, and pollution and untreated wastewater further 
debilitated the Sound--causing enormous environmental and 
economic effects on the Sound and coastal communities.
    Recognizing the need to act to restore the Sound, New York 
and Connecticut, in coordination with the Environmental 
Protection Agency, have been working for years on efforts to 
reduce the nutrient load into the Sound and remediate some of 
the legacy pollutants that have made their way into its 
sediments.
    In addition, legislation advanced by this body has provided 
critical resources for economically distressed communities 
along the Sound to remediate shorelines and repair sewage 
treatment plants.
    The Long Island Sound Restoration Act, which is up for 
reauthorization this year, has been a vital tool in reducing 
nitrogen loads in the Sound.
    A companion program authorized under the Long Island Sound 
Stewardship Act provides local stakeholders resources to 
restore the Sound while enhancing public access, using targeted 
efforts to revitalize shoreline habitats.
    This program truly demonstrates the teamwork needed to 
advance restoration of the Sound with partnerships at every 
level of government as well as local community organizations, 
colleges and universities, conservation groups, fishermen, the 
business community and landowners.
    Working with my fellow Long Island Sound Senators I am 
advancing legislation that would reauthorize these two 
important programs an additional 5 years at their current 
authorization levels.
    The Long Island Sound Restoration and Stewardship Act would 
simply take these two companion programs--each with their own 
specific mission, but shared goals--and synthesize their 
efforts into a single authorization.
    This non-controversial measure will build on the work over 
the last two decades to restore Long Island Sound for the 
benefit of millions of Americans and revitalize the environment 
and economy of this region.
    Mr. Chairman, I thank you for this opportunity to discuss 
my proposed legislation and the importance of restoring Long 
Island Sound.
    Thank you.

    Senator Cardin. And to Mr. Grannis, you noticed Senator 
Gillibrand was here earlier. She had a conflict at this 
particular moment but wanted very much to extend her greetings 
to you. She is, of course, our leader on the Long Island Sound 
issues. We are glad to hear from you.

 STATEMENT OF ALEXANDER B. ``PETE'' GRANNIS, COMMISSIONER, NEW 
      YORK STATE DEPARTMENT OF ENVIRONMENTAL CONSERVATION

    Mr. Grannis. Thank you very much, Senator.
    Well, from the West to the East, on behalf of Governor 
Paterson, I am very pleased to be here today. I could be 
talking about our two Great Lakes or the headwaters of the 
Susquehanna River, the Delaware River. I know you are well 
aware of that, our great Hudson River or Lake Champlain, which 
is one of the larger inland waters in the country. But I am 
here today to talk about Long Island Sound, and I know that 
Senator Gillibrand was talking about--and that is what her 
legislation would address.
    So I want to just very quickly note the interactions and 
the actions between New York and our partner States--
Connecticut most particularly--and the EPA and working on Long 
Island Sound. The achievements we have made to date have 
occurred under the auspices of the Long Island Sound Study, 
which is a 24-year cooperative project that is part of the 
National Estuary Program.
    The study culminated with approval of the Comprehensive 
Conservation and Management Plan for Long Island Sound, which 
is a very important blueprint to improve the health of this 
very vital estuary. The plan identified seven priority areas 
for implementation in the Sound: low-dissolved oxygen, toxic 
contamination, pathogens, floatable debris, health and living 
resources and their habitats, land use, and public outreach and 
involvement.
    As one of the key actions of the plan, municipalities 
bordering the Sound must upgrade their wastewater treatment 
facilities to eliminate the nitrogen discharges which cause 
hypoxia and impair the feeding, reproduction and growth of 
aquatic life in the Sound. Contaminated sediments both impair 
resources and make it more difficult to dispose of dredged 
material from the Sound. The Long Island Sound beaches are 
periodically closed. They make the news all the time, along 
with a great number of shellfish beds which also must be closed 
when pathogen levels exceed healthy levels.
    New York State and county and local governments anticipate 
spending an estimated $1.5 billion on wastewater treatment 
upgrades by 2017 in addition to the millions already spent. 
State and local funds are being used to restore aquatic 
habitats, control non-point sources of pollution, acquire 
valuable open spaces, and provide public access and undertake 
many other essential projects.
    But we can't do this alone, Senator. We appreciate our 
partnerships with the U.S. EPA, other Federal agencies, our 
counterparts in Connecticut, local governments, not for profit 
organizations, and as you can well imagine, a very committed 
citizenry.
    In 2000 Congress approved the Long Island Sound Restoration 
Act--these are all acronyms, LISRA--so that the Federal 
Government could share in New York's and Connecticut's 
commitment that the Sound Restoration Act funds be used for a 
wide variety of projects, including habitat protection and 
restoration, sewage treatment plant upgrades, program 
management and monitoring, education, research and special 
projects.
    We obviously greatly appreciate the commitment Congress has 
demonstrated to the Sound and particularly the advocacy of 
Congressmembers Israel, Bishop and Lowey, and our two great 
Senators, Senator Schumer and Senator Gillibrand. But without 
continued congressional advocacy for this important estuary, we 
feel that the efforts to restore the Sound will continue to 
limp along.
    The interests I have raised, while important, are subsumed 
by the critical issue of sea level rise, as has been discussed 
earlier, and its potential impacts on Long Island Sound's 
natural resources, water supplies and communities. In addition 
to working to reduce the level of greenhouse gases that are 
driving climate change, actions are needed to address the 
likely impacts of sea level rise on sensitive communities, 
particularly those in the Sound's watershed communities. 
Obviously, there are major consequences for people living in 
the watersheds and on the borders of Long Island Sound because 
of the impacts of sea level rise in the long run.
    We need Federal support for wastewater treatment upgrades 
to reduce discharges to the Sound. It is also critically 
important to address stormwater discharges that have resulted 
in the closures of shellfish beds and beaches, encourages the 
spread of invasive species, and increases suspended solids in 
the water.
    We also need Federal help to restore habitats in this 
biologically important region, including tidal and freshwater 
wetlands, shellfish spawner sanctuaries, and to mitigate 
barriers to fish passage. And also we have the same problems, I 
think there is a lot of common interest here in invasives, 
which are running rampant across our State, as they are in 
every other jurisdiction that is represented here.
    Finally, I just want to mention the Restoration Act's 
sister statute, which is the Long Island Sound Stewardship Act. 
While the Restoration Act was enacted to identify, protect and 
enhance special places around Long Island Sound, the 
Stewardship Act acknowledges the necessity of a Federal role in 
protecting habitats through the Sound. And so to ensure public 
access to the Sound, both these Acts are important because they 
compete for Federal funding.
    And so we suggest that a single, comprehensive funding 
source for all Long Island Sound-related projects would be an 
ideal solution. So New York strongly supports the legislation 
authored by Senator Gillibrand to fold the Stewardship Act into 
the Restoration Act.
    Due to the fiscal constraints facing New York, and I 
imagine every other jurisdiction represented today and across 
the country, I strongly urge the Senate to consider increasing 
the current Federal 50-50 match for Long Island Sound projects 
to a 75-25 match, or to be very bold, to remove the match 
requirement entirely for a short period of time. We are 
strapped as every other State is, and the inability to muster 
the match requirements limits our ability to move forward with 
Federal projects. And so relief of some type, in the short term 
at least, would be very beneficial for our ongoing efforts.
    We are at a crossroads with the Sound. Obviously, we have a 
chance to move forward. We have some very difficult issues, and 
we are looking forward to a strong partnership not only with 
you, Senator and the Members of Congress, but our partners at 
EPA and in Connecticut, and we thank you for this opportunity 
to testify today.
    [The prepared statement of Mr. Grannis follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    Senator Cardin. Well, thank you very much for your 
testimony.
    I will turn to Senator Merkley to introduce our next 
witness.
    Senator Merkley. Thank you very much, Mr. Chair.
    It is my pleasure to introduce Debrah Marriott to the 
Committee today. Ms. Marriott is the Executive Director of the 
Lower Columbia River Estuary Partnership, an organization that 
is pursuing a fully collaborative and voluntary approach to 
restoring one of our country's great watersheds. The 
Partnership includes 28 cities, nine counties in the States of 
Oregon and Washington, as well as other private and public 
stakeholders ranging from ports to the pulp and paper industry, 
to farmers and other landowners.
    They developed a comprehensive plan for restoring habitat 
and reducing toxic pollution that includes activities ranging 
from improved monitoring to public education to working with 
farmers to help safely dispose of pesticides they don't need.
    While their work has focused on the Lower Columbia, Ms. 
Marriott has expertise on the entire basin, and her 
collaborative approach serves as a model not just for the 
restoration of the Columbia Basin, but I think for watersheds 
across the Nation.
    It is great to have you here.
    Ms. Marriott. Thank you.

    STATEMENT OF DEBRAH MARRIOTT, EXECUTIVE DIRECTOR, LOWER 
               COLUMBIA RIVER ESTUARY PARTNERSHIP

    Ms. Marriott. Thank you, Mr. Chairman.
    Thank you, Senator Merkley.
    My name is Debrah Marriott. I am here today representing 
the Columbia Basin, and I thank you very much for this 
opportunity.
    This bill does recognize the Columbia Basin as one of the 
Nation's great water bodies. It opens the path finally to 
reduced toxic contamination, improved ecosystem conditions, 
provide significant jobs, and begin long-term improvements to 
public health and economic stability.
    As you have heard, the Columbia is a significant water body 
to the Nation. Eight million people live here. Over 2,000 
species make their home there. It provides power to over 75 
percent of the Northwest. Its farm and ranch land provide sales 
exceeding $10 billion, and it carries cargo worth $13 billion 
annually. Native American tribes have gained their sustenance 
by it for over 10,000 years.
    The Columbia is degraded from the Canadian border to the 
Pacific Ocean. One hundred percent of the main stem Columbia 
has been listed as impaired. Temperature and dissolved gas 
exceed safe levels for species. More than half of the wetlands 
in the lower river have been lost. More than 20 species of 
salmon are listed as threatened or endangered. And toxics 
banned in the 1970s, as you heard, are still present in fish 
tissue, water and sediment.
    Contaminants and flame retardants in pharmaceuticals are 
causing male fish to morph to females within their life cycle. 
Contaminants have impaired the reproductive organs of male 
river otters, and we have the largest clean up in the world at 
Hanford.
    Contaminants that start up in the basin are deposited in 
the lower river, putting ports at risk. The loss of fish has 
decimated our commercial fishing industry, dropping from $41 
million in personal income in 1980 to less than $4 million by 
1998. And as you heard, Columbia River tribal people eat 10 
times more fish than other populations.
    We have conducted many one-time studies. We know the 
problems. We have significant snapshots in time. The planning 
has been done. Our management plan, the EPA toxics reduction 
plan, USGS work, the biological opinion, and the recovery 
modules and plans all indicate that restoring habitat and 
reducing toxics are paramount.
    We have made progress. In the lower river we have restored 
almost 16,000 acres of habitat, nearly half of what we lost. We 
have developed extensive reporting systems and accountability 
systems to EPA as the National Estuary Program, with reports 
annually on our environmental progress and our fiscal 
accountabilities.
    The problems are big. They are the results of hundreds of 
different sources and hundreds of different activities over a 
very long time, and they move through the entire system. They 
can't be corrected in a 1- or 2-year cycle. The States have 
done exceptional work within their States and on our 
tributaries, but the main stem investment is woefully short 
given the magnitude of the problems.
    Despite all this, there is no sustained monitoring on the 
main stem and no concerted toxic reduction efforts. In fact, in 
the past 15 years as we have learned more about the extent of 
the problem, we have actually invested less, and now only one 
site on the main stem is monitored continually.
    With this bill and subsequent appropriations we would 
collect and analyze data for a full suite of contaminants at 
the same locations at regular intervals over time. We would 
expand agricultural toxic reduction work with farmers, 
pesticide takeback programs, and mercury collection events, 
especially on tribal lands.
    We would collect unused pharmaceuticals to keep them out of 
the water and out of the hands of teens. We would develop 
consumer education, especially for at-risk populations. And we 
would expand the scientific base upon which we prioritize 
habitat restoration.
    This work secures our region. It keeps the ports 
operational. For every $2.5 million in restoration, we create 
55 jobs from construction workers for culvert replacement to 
foresters. It aids farmers, and it opens markets for local 
supplies and services, and we are ready to go.
    The Columbia is a national priority. The lower river is an 
estuary of national significance and the entire basin is now a 
great water body. And as the Senator said, we are the only 
great water body to receive no appropriations pursuant to this 
designation.
    This authorization meets five Federal priorities, tribal 
needs and State goals. We have extended the National Estuary 
Program approach of gathering diverse interests, using science, 
and defining actions to all the geographies in the basin and to 
hundreds of stakeholders because our system, like all systems, 
does not end at a dam.
    Whether we intended to or not, we created this, the good, 
the bad and the really bad. And the good news in that is we can 
reverse those trends.
    I thank you very much for the opportunity to speak here 
today, and again I thank Senator Merkley for his leadership in 
this. And I would be happy to answer your questions.
    [The prepared statement of Ms. Marriott follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Senator Cardin. Well, thank you very much for your 
testimony.
    We will now turn to Mr. Naftzger.

  STATEMENT OF DAVID NAFTZGER, EXECUTIVE DIRECTOR, COUNCIL OF 
                     GREAT LAKES GOVERNORS

    Mr. Naftzger. Thank you, Chairman Cardin and members of the 
Committee. I am David Naftzger, Executive Director of the 
Council of Great Lakes Governors, which is a partnership of the 
Governors from each of the Great Lakes States: Illinois, 
Indiana, Michigan, Minnesota, New York, Ohio, Pennsylvania, and 
Wisconsin. The council is led by our two co-chairs, Wisconsin 
Governor Jim Doyle and Ohio Governor Ted Strickland.
    Through the council, the Governors and the Premiers from 
Ontario and Quebec work together to promote our economy and 
advance our region's economic health. I appreciate the 
opportunity to submit the testimony today.
    The Great Lakes are a unique treasure of international 
significance. They contain approximately 20 percent of the 
world's surface fresh water and 95 percent of North America's. 
More than 35 million Americans rely on the waters of the Great 
Lakes Basin.
    Our region's economy and indeed our nations depend on the 
Great Lakes. Overall, the region generates nearly 30 percent of 
our Nation's gross domestic product and about 60 percent of all 
U.S. manufacturing. The Great Lakes are shared by two nations, 
eight States and two Provinces, thousands of municipal 
governments, as well as tribes and First Nations.
    The Great Lakes States have a longstanding and sustained 
commitment to protecting and restoring our Great Lakes. The 
States continue to invest heavily and manage many different 
programs toward this objective. Of course, other governments 
and partners are working similarly.
    Unfortunately, our success is incomplete, and our waters 
remain vulnerable. It is clear that yesterday's tools are not 
well suited to tackle today's challenges. And even when we have 
the right tools, too frequently we lack the resources to use 
them effectively. As a result, our environment suffers, our 
economy suffers, and we suffer.
    However, recent work has created an opportunity to 
accelerate our efforts. The Governors successfully developed 
the Great Lakes Compact and now serve on its council. 
Congressional support is recognized and appreciated.
    Separately, at the request of Congress, the Governors 
developed priorities to broadly protect and restore the Great 
Lakes. Following that, the President issued an Executive Order 
which began an historic effort to develop a comprehensive 
restoration strategy.
    More than 1,500 representatives of governments, stakeholder 
groups and citizens participated in this effort. And most 
recently, we have accelerated our work with the support of 
President Obama's Great Lakes Restoration Initiative. This 
program has delivered unprecedented funding in addition to 
national programs like the Clean Water Act State Revolving 
Fund.
    In sum, our region has protection and restoration 
priorities that we all agree on, a consensus strategy, and 
significant and recent progress to build on. But if we are able 
to achieve our goals, we have to redouble our efforts broadly 
and across many programs. A large and sustained Federal 
investment in the Great Lakes is needed, and we must coordinate 
our work more effectively.
    Clearly, the Great Lakes are unique and require distinct 
management structures. To be most successful, any future Great 
Lakes restoration program must encompass several overarching 
principles. First, ensure that all funded activities help 
implement the region's restoration strategy. Second, coordinate 
the efforts of the many government and non-governmental 
entities and recognize the leadership role of the Governors in 
defining State and regional priorities.
    Next, minimize bureaucracy and allow efforts to be directed 
toward protection and restoration rather than process and 
paperwork. And to the greatest extent possible, funding should 
be distributed via block grants or otherwise coordinated in 
large grants to improve efficiency.
    And last, adopt alternatives to non-Federal match 
requirements with the flexibility to recognize the ongoing and 
significant investments by States, other governments, and 
stakeholders.
    Over the past several months, we have worked 
collaboratively with representatives from Congress, local and 
tribal governments, and non-governmental organizations to 
develop a framework embodying these principles. In particular, 
we appreciate the leadership of Senator Levin and Senator 
Voinovich, and my colleague, David Ullrich, will be describing 
the framework in more detail.
    In coming months, we look forward to working with you 
toward our shared goals: a revitalized natural environment and 
reinvigorated economic assets that can power us into the 
future, just as they powered our past.
    Again, thank you for the opportunity to submit the 
testimony. I look forward to continuing to work together.
    [The prepared statement of Mr. Naftzger follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
       
    Senator Cardin. Thank you very much for your testimony.
    Mr. Tauzel.

   STATEMENT OF JOHN R. TAUZEL, SENIOR ASSOCIATE DIRECTOR OF 
              PUBLIC POLICY, NEW YORK FARM BUREAU

    Mr. Tauzel. Yes, good morning, Mr. Chairman, and thank you 
so much for the opportunity to be here today, and thank you to 
the members of the Committee as well.
    I would also like to extend a thank you to Senator 
Gillibrand for her strong work in representing our State, and 
recognize Commissioner Grannis, who we have a strong ongoing 
discussion with regarding environmental issues.
    I am so happy to be here to represent the 35,000 farm 
families of New York State. As many of you have discussed and 
as many panelists have discussed, agriculture is a critical 
component of any part of the Great Lakes and the great bodies 
of water that are being discussed today by the Committee.
    In New York, that is certainly true. In the Great Lakes 
Basin we have over 17,000 family farms. Almost half of the 
farms in New York State are located in the Great Lakes Basin. 
On Long Island Sound, Suffolk County is our largest 
agricultural county by value. Suffolk County represents the 
eastern end of Long Island.
    Agriculture has a role to play, and farmers are excited to 
help work on water quality issues. Water quality is critical. 
As you know, it is the lifeblood of New York agriculture and of 
agriculture in general, and farmers are truly committed to 
water quality.
    Unfortunately, sometimes that runs into the fact that 
farming is a business. Farmers are faced with economic 
realities of making decision to protect water quality while 
making sure their businesses are sustainable over the long 
term.
    Today, I would like to talk to you about a model that works 
in New York called the agricultural environmental management 
model. The Under Secretary talked a lot about two approaches: 
collaboration and coordination, and that is really what AEM was 
set up to do. Working through the New York State Soil and Water 
Conservation Committee, local soil and water districts, the New 
York State Department of Agriculture and Markets, the New York 
State Department of Environmental Conservation, and our Federal 
partners, USDA NRCS, farmers have for the past 10 years 
developed a unique model that focuses on solving local issues 
and addressing local concerns. By local, I mean farm site 
specific.
    We have over 12,000 farms in the program, roughly one-third 
of the farms in New York. We focused on dairy and are expanding 
to focus on areas like equine, wineries and our fruit and 
vegetable farmers.
    When I talk about farm specific focus, that is where our 
members have experienced the most benefit in getting to 
environmental benefits. On my home farm we established nutrient 
management plans which really help our farm to better utilize 
the nutrients available to us and also enhanced buffer strips 
to make sure that--and in fact, our farm is in the 
Chesapeake's--to make sure we are doing the best we can to 
protect the water.
    AEM works. We know it works. In places where this 
voluntary, incentive based approach has been utilized, we have 
seen proven monitored results of reductions in phosphorus. It 
also has worked over the long term. Farms are a long-term 
investment. My family has for over 80 years been involved in 
agriculture. As many in this room know, water quality is a 
long-term investment as well. We will see progression over the 
long term.
    AEM and a voluntary incentive based approach that achieves 
participant buy-in helps establish this long-term goal. Farms 
are now buying into water quality. They are working hard to 
protect that water quality.
    That helps regulators because Commissioner Grannis can 
focus on some of the larger issues from a DEC perspective, 
rather than agriculture, and that has been successful.
    How can the Federal Government continue to help these 
farms? Well, the good news is you have done a great job 
already. The farm bill programs that you have established, like 
EQIP, WHIP, AMA, have been really tremendous to help 
agriculture. The Conservation Innovation Grant Program that you 
created has helped establish brand new innovative ways to push 
our boundaries and push the boundaries on farm environmental 
management.
    I will say, one of the conversations and one of the points 
that came up earlier was this concept of regulation. I am not 
going to say that all regulation is bad. Certainly, certain 
regulations are needed. Our concern is just as environmental 
improvement is really best targeted on the local level, 
environmental regulation should also be targeted on the local 
level. There are significant tools out there that have already 
been established on the Federal level. Now, we recommend that 
the States really have that authority to then utilize those 
tools to move forward with that issue.
    One-size-fits-all does not work, and from our personal 
experience dealing with the CAFO program established by Federal 
regulation, we have seen what Federal regulation can do. It 
does not take into account the unique nature of agriculture in 
all segments of the country. In fact, if our farms had not had 
a strong history of working for agriculture in the past and 
working for water quality improvement in the past, the current 
proposal would have stopped agriculture and unfortunately would 
have also stopped our DEC from--we believe would have stopped 
our DEC as well from administering other important programs.
    With that in mind, I will just mention three other points 
to you. Forty cents per gallon, that is the amount of loss that 
every farmer took in New York State this year on the gallons of 
milk they produced; 35,7000 acres, that is the total number of 
acres in Suffolk County keeping--the total number of 
agricultural acres left in Suffolk County on Long Island 
holding back blacktop land; and $37 million, that is green 
infrastructure investments--$37 million is the amount of land 
that we--I am sorry--the requests that farmers had to EQIP 
programs this year that were not funded in New York.
    Again, thank you for your time today. I appreciate all the 
opportunity today and look forward to answering any questions.
    [The prepared statement of Mr. Tauzel follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Cardin. Well, thank you. I think the view from the 
agricultural community is extremely important in this debate, 
so thank you for being here.
    Mr. Ullrich.

STATEMENT OF DAVID A. ULLRICH, EXECUTIVE DIRECTOR, GREAT LAKES 
               AND ST. LAWRENCE CITIES INITIATIVE

    Mr. Ullrich. Thank you very much, Senator Cardin, Senator 
Klobuchar, Senator Merkley. I appreciate the opportunity and 
your willingness to hear from local government as well today.
    I am Executive Director of the Great Lakes and St. Lawrence 
Cities Initiative, which is a group of 70 United States and 
Canadian cities from across the Great Lakes and St. Lawrence. 
We represent about 13 million people in our cities. I am very 
happy to have our Chairman, Mayor George Heartwell of Grand 
Rapids, Michigan, here with me today as well. In addition to 
those responsibilities, I serve as the U.S. Section Chair on 
the Great Lakes Fishery Commission.
    We in the Great Lakes community are extremely excited about 
this concept of great waters legislation where we can look 
across the country at the tremendous resource we have in our 
waters and figure how to do a much better job of protecting and 
restoring it long term into the future.
    Senator, your earlier question about common elements struck 
me as I was listening to this panel and the other one, is that 
a tremendous amount of work has gone on already and progress 
has been made, but the magnitude and complexity of these 
resources, and the complexity of the problems we are dealing 
with, continue to increase the challenges that we have.
    We all know there is not an unlimited amount of money to 
deal with this, so we have got to be looking at other ways to 
improve the way that we do business. I think a lot of good work 
has been done, but we can do better.
    As Mr. Naftzger mentioned, we have been working quite 
heavily lately on trying to see if there are ways we can 
streamline and improve the effectiveness of the management of 
the resources that we have and increase and improve the 
collaboration and cooperation. The spirit is there, but making 
it a reality is the real challenge that we face.
    Basically, the idea that we have come up with is a two-
tiered management system with an added element in terms of 
having a good, tight, clear plan to improve the accountability 
and responsibility associated with utilizing the Federal, State 
and local resources, as well as achieving the results.
    The first tier would be what we would call a leadership 
council that would essentially take the political leadership at 
the Federal, State, local and tribal level, basically working 
with the number of our States with eight Governors, but also 
having eight Mayors, eight tribal leaders, and eight leaders of 
Federal agencies. This council would serve as the overall 
policy directors, setting goals and objectives, setting the 
priorities, and basically giving the battle charge on an annual 
basis.
    We would also have observers from the commissions that 
oversee the work, Great Lakes Commission, International Joint 
Commission and also the Great Lakes Fishery Commission. And we 
think we should invite our good neighbors from Canada to sit in 
on this as well. So with this overall policy-setting, and we 
would hope we could get a significant number of that political 
leadership every year together, and to really give the 
direction to the career staff to get out and get the job done.
    The second tier would be a management committee that 
essentially would have one representative of each of those 
entities that is on the leadership council. Plus, here is where 
we would bring in the agricultural community, the industrial 
community, the environmental community to, on a more frequent 
basis, be monitoring the work that is being done, resolving 
disputes, basically pushing, pushing, pushing on more 
implementation and more action. That is what we really need to 
have happen, I think, at all of these resources, I know in the 
Great Lakes area specifically.
    In both of these bodies, speaking of leadership, we do need 
leadership. We think the U.S. Environmental Protection Agency 
is in the best position to provide that kind of comprehensive 
chairing of both the leadership council and the management 
committee that we would have. They have a broad range of 
responsibility, and I think we are all prepared to rally around 
the kind of leadership that they have been showing recently 
with the Great Lakes Restoration Initiative. So we think those 
two elements are essential.
    The third thing is really to have some clarity in a plan 
where you can go to it and you know who is responsible to do 
what by when, and that we can have accountability to one 
another. We can have accountability to Congress for the money 
that is being provided, and even more importantly, 
accountability to the broader public that is expecting us to do 
the kind of job that needs to be done on this.
    So with all of these great waters, we are at a critical 
point. There are tremendous opportunities to improve in the 
future, and these are just a few ideas to work with.
    Thank you again for hearing me out.
    [The prepared statement of Mr. Ullrich follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Senator Cardin. Well, thank all of you for your testimony.
    It is my intention to call on Senator Merkley first, then 
Senator Klobuchar. Senator Klobuchar is one of our leaders on 
Canadian-American relations, so I am sure she can help us with 
the Great Lakes.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair.
    And thank you so much, Debrah, for your testimony today and 
for all the work you have done to coordinate efforts to improve 
the health of the river system.
    I grew up sailing and swimming in the Columbia and in the 
Willamette, and I had no idea of the challenges that the river 
system was encountering. In that regard, in your testimony you 
mention an effort to clean up a particular tributary, that a 
lot of work was done for habitat restoration. Fish didn't 
return because of the toxic contamination that was later 
discovered. Can you tell us a little bit more about that 
example and the insights that come from that?
    Ms. Marriott. Thank you, Mr. Chairman, Senator Merkley.
    Yes, there is a tributary to the north of the Columbia 
where millions of dollars were invested in habitat to restore 
the threatened and endangered species, and the fish did not 
return as expected. When they did finally invest in toxics 
monitoring, they found significant contamination in the fish 
and in the sediments where the habitat was.
    What this speaks to is the strong need to make sure that we 
are measuring for toxics in the water and fish and sediment as 
we are restoring habitat, and that particular activity has not 
been active and fully funded on the Columbia.
    Senator Merkley. Do you know what the source of that 
particular toxic contamination was on that tributary?
    Ms. Marriott. Largely DDTs and new pesticides in 
fertilizers being used, runoff from numerous uses with various 
contaminants. The exact impacts are still being studied.
    Senator Merkley. Well, turning to DDT, it remains 
persistent in the river system despite that fact it was banned 
some time ago. How do we go about addressing a chemical that we 
are no longer putting in the river, but are there things that 
can be done to diminish its impact on the river system?
    Ms. Marriott. Mr. Chairman, Senator Merkley, there are 
indeed things that we can do. Of course, clean up of small 
sites would be one of the first things we would look to do. 
Also, pesticide collection sites are turning out to be very, 
very helpful.
    EPA has held a few collection sites in the Dalles and a few 
other locations above Bonneville Dam, and at one site in fact 
collected 17,000 pounds of DDT that were sitting in farmers' 
and others' barns, not used, thankfully, but sitting there as a 
potential threat to groundwater and the river systems. So those 
takeback sites, takeback events are very important and first 
step efforts to get us right on the ground, to get some of 
those chemicals out.
    Senator Merkley. Another thing you mentioned in your 
testimony was that various products have hormonal effects. 
Either they may be directly, and I reference to perhaps birth 
control pills that are flushed down the toilets and end up in 
the waterway, but also other chemicals that have hormone 
simulation impacts.
    Has there been enough study to really understand what the 
most significant threat is? Is there kind of like this is No. 
1, this is No. 2 and so forth?
    Ms. Marriott. I have to say that is a little bit beyond my 
area of in-depth technical expertise regarding specific 
contaminants and their impacts. I do know that antibiotics and 
the birth control hormones that you mentioned are two of the 
significant contaminants. There are other medications, both 
over the counter and prescriptive medications, that cause the 
same kinds of impact. So again, drug takeback and collection 
sites are one immediate way to get at least the products we are 
not using out of the water systems.
    Senator Merkley. One of the things that we have heard about 
in this Committee is the role of BPA. Is that right?
    Ms. Marriott. Yes.
    Senator Merkley. BPA in plastics. And we have also heard a 
lot about the plastic bags and plastic bottles that are in the 
waterway. And is that considered one of the--is that a 
significant issue?
    Ms. Marriott. The source of that is largely flame 
retardants, and those are plasticizers that are in almost 
everything we touch, wear, live with--our computers, probably 
everything in this room, our fabrics. I know a couple of 
States, and I believe the State of Washington, has passed a 
limited ban products with flame retardants from being 
manufactured in the State. That is an issue that probably will 
take State and national leadership to have us address because 
the products are so widespread.
    Senator Merkley. Well, my time is mostly up, so in 15 
seconds, is there anything else you would like to add?
    Ms. Marriott. You know, I would, actually. I started doing 
this in the Columbia about 15 years ago, and shortly after that 
my son was born. And I remember saying at the time that when he 
was an adult, I wanted to be able to look him in the eye and 
tell him I had done everything I could to improve this water 
body. And I have to say, he is 13 now, and I can look him in 
the eye, but I can't quite tell him I am done. I think there is 
still much more work we need to do.
    Thank you again for your leadership on this.
    Senator Merkley. Thank you for all your work.
    Senator Klobuchar.
    Senator Klobuchar. Very good. Thank you very much, Mr. 
Chairman.
    Thank you to all of you. As you know, I am from Minnesota, 
which on our license plate it says Land of 10,000 Lakes, but it 
is really 15,000 lakes. One of them is very big, and that is 
Lake Superior. And as you know, we have had some recently a lot 
of concern about the Asian carp issue, something I actually 
also talked, as Senator Cardin mentioned, I head up the 
Interparliamentary Group with America and Canada. Congressman 
Oberstar heads it up on the House side. We talked about that as 
well.
    So if you, Mr. Naftzger and maybe Mr. Ullrich, representing 
the Great Lakes piece of this panel, could comment a little bit 
about what you see as the best ways to prevent those large fish 
that jump up in the air and hit fishermen over the head and 
cause great danger to our ecosystem and our economies, what is 
the best route to go here.
    I know there is talk about the lock closings, trapping 
these fish, shooting these fish. What is the best way to do it?
    Mr. Naftzger. Mr. Chairman, Senator Klobuchar, thank you 
for the question. It is a huge problem, and as you know we have 
ongoing litigation among the States about some of the 
particular solutions that could be exercised.
    Nevertheless, there are a number of things that the States 
and I think most of the region can agree on. One is to complete 
the Asian carp barrier that is in place in the Chicago sanitary 
and ship canal. The other is to expedite the Army Corps' work 
to study a long-term solution of ecological separation between 
the Mississippi River watershed and the Great Lakes system. And 
that would really be looking at preventing all transfer of 
species between those two watersheds. And we have certainly 
seen species go the other direction as well, although the carp, 
of course, is moving toward the lakes.
    But nevertheless there is an unprecedented effort. There 
has been an effort led by the Illinois Department of Natural 
Resources, the U.S. Fish and Wildlife Service, the Army Corps 
and many other partners, and we are very hopeful that those 
efforts will be successful, but it is going to take a sustained 
and long-term commitment. This isn't likely a threat that will 
recede in the near term.
    Senator Klobuchar. Mr. Ullrich.
    Mr. Ullrich. Just a couple of comments, Senator. First of 
all, we are fortunate we don't have any litigation between any 
of our cities, so we are still together, I think, as a unit on 
this.
    Second, I would say probably the most important thing is to 
retain the sense of urgency that we have gained over the last 
couple of months where the awareness of how far the carp appear 
to have gotten is known.
    Senator Klobuchar. I mean, I asked one of the Army 
engineers, is there some thought Lake Superior would be too 
cold, and no one can guarantee that because these fish adapt.
    Mr. Ullrich. Yes. They go where they want. But we must, as 
Mr. Naftzger said, we must maintain the sense of urgency as we 
move forward with critical short-term, mid-term and long-term 
actions. In the short term, as I understand, under the 
framework that was established by the Federal Government and 
State involved as well, increased and improved surveillance to 
find out where they really are now was started as recently as 
last Wednesday. There was a good effort before, but that has 
substantially been increased so we know where they are, how 
many of them there are, and where they are moving so that the 
various techniques to deal with them, whether it is rotenone 
treatment or other new approaches, can be utilized.
    The next thing I would say is looking at the locks. I am 
concerned that it was viewed as a silver bullet solution to the 
problem that really, from everything I understand, is not the 
case. Some form of modified lock operation that dramatically 
reduces the likelihood of movement of the carp but at the same 
time allows for navigation to go through, I think is an 
important thing.
    Accelerating the studies so that we can get to a true 
solution to this problem long term, including a commitment to a 
separation of these water bodies in a way that will not allow 
the species to so easily go back and forth, is essential. 
Because it is Asian carp today, but it is going to be something 
else tomorrow.
    Senator Klobuchar. Right, other invasive species.
    Mr. Ullrich. Yes. We have heard about the quaggas and the 
zebras and everything else. They don't wait for anything. We 
have made it way too easy for them. So that needs to be a real 
commitment.
    I think ongoing congressional oversight is critically 
important to this as well, but people are pulling together. It 
appeared the unity was fragmenting, but I think we are very 
committed to do everything we can to keep the Great Lakes 
community together on this.
    Senator Klobuchar. One last question. Just how would you 
view success, apart from the Asian carp issue, as we look at 
these restoration efforts with the Great Lakes? What should we 
have as our goals here for the Great Lakes as we look at the 
initiative and everything the Administration is doing? What do 
you think the key--the most important things are for the Great 
Lakes?
    Mr. Ullrich. Well, looking long term now, I think we need 
to have a goal of zero introduction of new invasive species to 
the Great Lakes. It may take a lot of work and a long time, but 
I think with that kind of a goal we will get closer sooner if 
we really stretch that. The 1972 Clean Water Act said zero 
discharge of pollutants by 1985. We didn't make it, but we got 
a lot farther because we had that kind of a goal.
    Second, and near and dear to the hearts of our communities, 
is dealing with combined sewers and sanitary sewer overflows. I 
think we ought to have a long-term goal using green 
infrastructure and traditional gray infrastructure to continue 
to drive that down toward zero. I think those are two of the 
critical things.
    Third, restoring habitat. We have got to get acres back in 
the coastal habitats, particularly the wetlands that are so 
critical in terms of water clarity, holding water for flood 
purposes, and habitat for fish, wildlife and others.
    Senator Klobuchar. Mr. Naftzger, do you want to add 
anything?
    Mr. Naftzger. I think our challenges are many. We certainly 
have to restore the areas of concern. We have to deal with the 
wastewater and other issues that Mr. Ullrich referenced. And we 
need to stop invasive species. Those are just three of many 
challenges we face. It is going to take a concerted effort over 
a number of years, and we are very eager to build on the 
success we have had with the restoration initiative to really 
accelerate that progress.
    Senator Klobuchar. OK. Thank you.
    Mr. Chairman, thank you for including two representatives 
from the Great Lakes. I don't know if you know this, but I 
served on the Oceans Subcommittee of Commerce during my first 2 
years, and I went to the first meeting and every Senator there 
had an ocean except me, Lott, Snowe. And I finally turned to 
Frank Lautenberg. I said, ``You know, everyone here has an 
ocean except me.'' And he wrote a note to me that said, ``That 
is OK. Next year, just come back and ask for one.''
    [Laughter.]
    Senator Klobuchar. So there we are, but I have my Great 
Lakes. Thank you very much.
    Senator Cardin. Well, we will change the name to the Great 
Oceans. We will figure out the way to do that for you.
    Well, again let me thank all of our witnesses.
    Mr. Tauzel, I want to start with you, if I might, because I 
think the agricultural community is a very important part and 
player in this. They are clearly one of the major stakeholders 
in all of our efforts to deal with the great waters.
    You mentioned farm environmental management tools that have 
been made available in various bills and legislation that 
worked its way through. I can tell you in the Chesapeake Bay 
watershed, it has been very important.
    And then you said something which is typical of the 
agricultural community, your suspicion about regulations, but 
if we are going to have regulations, you would like them to be 
locally dominated, and we certainly understand that.
    I want to get to the additional tools that could be helpful 
to the agricultural community as we look at all the 
stakeholders taking actions to help us in dealing with the 
water qualities issues. One is the Nutrient Trading Program. 
The other is technical assistance to farmers. I can just tell 
you that in my own State of Maryland, farmers do not have the 
resources to make the type of applications or plans that can 
help us with dealing with the Chesapeake Bay. Technical 
assistance is an issue that we have talked about.
    But I would like to get your view as to how important those 
additional tools could be to help the agricultural community as 
responsible stakeholders here.
    Mr. Tauzel. Absolutely. Thank you, Senator Cardin.
    So to the point, from a technical perspective, technical 
assistance perspective, you are absolutely right. I talked a 
lot about the need for agriculture, the needs out there to help 
support agriculture and best management practices on farms.
    However, the technical assistance is a critical component 
of that as well. We can have all the funding up on top, but if 
we don't have technical assistance to move that funding on to 
farms, it is not going to happen.
    I talked about the local concept of AEM, and really that is 
where it comes down to, the farm, local sewer and water 
districts in New York working together to implement best 
management practices. Anything that the Congress could do to 
move forward on increased technical assistance would be welcome 
by New York, certainly, and by New York farmers.
    You talked a little bit about the nutrient trading program 
as well. And nutrient trading provides a market based approach 
to how do we address nutrient management and pollution controls 
on farms, as well as in other sectors as well.
    Nutrient trading has potential. We certainly would welcome 
the opportunity to establish compacts to either allow for 
inter-State nutrient trading or to allow States that want to 
focus on solely in-State aspects of concern to stay intra-State 
as well.
    There is a concern that when we apply Federal oversight, 
and we applied TMDL standards that require everything from 
everyone everywhere, that that eliminates the opportunity for 
farms to trade those credits and to then gain economic 
opportunity, basically saying that, you know, some of the 
models that you look at would say everybody has to do all of 
the best management practices. Well, that leaves out a lot of 
the opportunity, then, that farms have to trade off those 
management practices and the nutrient reductions they would see 
from that and gain that economic advantage from that.
    Senator Cardin. Well, just to follow up on that, the 
programs that have been submitted dealing with nutrient 
reduction require a certain level from the agricultural 
practices. And it requires a certain level from wastewater 
treatment facility plants and development and other issues.
    The point is that in the agricultural field you can get in 
some cases below what is required at less of a cost than 
perhaps dealing with development or wastewater treatment 
facility plants. So the economics of it is such that a 
municipality would say, look, we are prepared to buy your 
nutrient credits if you go beyond what the requirements would 
otherwise require you to do.
    I think that is how it would work with a nutrient trading 
program. There is always more that can be done is the economics 
of it.
    Mr. Tauzel. Exactly, to a degree, you are correct. There is 
always more that can be done. Unfortunately, you will 
eventually hit that threshold, and if the expectations are so 
high on agriculture that there is nothing more that can be done 
or that physically it is not possible for a farm to do more, 
then that farm does not have that opportunity to transfer those 
funds and to take advantage of those opportunities.
    Senator Cardin. Certainly.
    Mr. Grannis, I want to, if I might, just agree with your 
comments about how we are all interrelated here. New York and 
Maryland have a lot in common. As I mentioned, as you were 
going through the different water bodies in New York, the 
Susquehanna is very important to us, where it starts in 
Cooperstown, New York, and part of the watershed area.
    I remember very much the debate concerning the migration of 
bass from New York near the Long Island Sound into the 
Chesapeake Bay. And our prized rockfish is part of the heritage 
that is involved somewhat in the work that you are doing in the 
Long Island Sound. So all this is interrelated.
    I guess I have a question for the entire panel and would 
ask if you could respond briefly. The model seems to be similar 
in all of the great waters, and that is to try to bring 
together all the stakeholders to get the best technical 
information you can get, the best science, come up with a 
unified strategy that everybody signs on, to try to provide the 
resources to help implement those plans, to have the 
appropriate reviews and public support for the program.
    But at the end of the day, if you have not accomplished 
what good science tells you you should have accomplished, how 
do we hold you accountable?
    Mr. Grannis. That is a very good question, Senator. 
Obviously, you know, there is a huge wealth of intellectual 
capability and talent that we all bring to the able in these 
discussions. I think setting out after you get the science and 
after you get the stakeholder input are management plans with 
measurable goals. I think it is perfectly appropriate. I know 
we have had these discussions on Chesapeake Bay about very 
strict standards and progress to be measured against so that we 
could see what we are doing, whether what we are doing makes a 
difference in the cleanliness of Chesapeake Bay.
    I think having those measurable goals and then publicly 
announce those goals and measure our progress against that I 
think is critically important. It comes back to this other 
issue, though, with all the resources that we bring to bear. I 
mentioned this in my statement, the idea that somehow in these 
difficult times when we have such ambitious goals among all of 
us here for protecting our great waters, is that we are really 
going to have to rely even more heavily on a consensus at the 
Federal level to support these programs, particularly in the 
short term, with even more resources that might be needed in 
the long term as the economy recovers and we can bring our own 
financial resources to the table.
    We are constrained. We have a huge budget deficit in New 
York, $8.5 billion projected for next year. And so the matches 
required for Army Corps projects, for some of these ongoing 
efforts to meet these goals are going to be very, very tightly 
constrained.
    Senator Cardin. I am sympathetic to what you are saying, 
and I support the resources being made available and prepared 
to say that based upon the resources that are available and 
what science tells us we should achieve, and if still you do 
not achieve that level, what is the enforcement? What is the 
accountability?
    How do I go back to the taxpayer of this Nation and say we 
made the investment, science told us we should have reached 
this level, that this is a national treasure, a regional 
treasure that you all want to pass on to your children and 
grandchildren? We want your 12-year-old to be able to enjoy 
this in the future. We want you to be able to, with a good 
conscience, be able to say you have done everything you can.
    But if for reasons that the voluntary nature of these 
programs, and they are voluntary natures generally, doesn't 
result in what science tells us we should have achieved with 
the investment that we made, then how do we hold you 
accountable?
    I will give Mr. Ullrich a chance, and I will come back to 
you.
    Mr. Ullrich. Well, I think this is all about problem 
solving, Senator. One of the good examples I think of what you 
are posing is the phosphorus levels, particularly in Lake Erie, 
that we dealt with. A tremendous effort was put in over the 
years to reduce phosphorus loadings, with a great deal of 
success, improvement in the water quality, best walleye fishery 
in the world in part as a result of that.
    Early to mid-1990s, the phosphorus level started to go back 
up again without increases in loading, and the scientists were 
perplexed. I think the most common thought right now is the 
element that the zebra mussels have introduced and the way they 
process nutrients and particularly phosphorus is in fact making 
the problem worse.
    I think the way you hold us accountable, and this is 
consistent with the concept of adaptive management. The first 
time, you don't always completely solve the problem. You bring 
us back and you say, OK, why didn't it work? And what are you 
going to do to fix it this time?
    And I do believe--I sense that you are getting at somewhat 
the balance of voluntary and regulatory programs. You have got 
to have some regulatory programs. That is why we had the 
dramatic reductions in industrial and municipal discharges 
since 1972 and huge improvements in water quality.
    I had a little experience with the Environmental Protection 
Agency over 30 years. Some of the early work was with the 
farming community and obviously not enjoying the regulatory 
approach too much, but a certain amount there. Confined animal 
feeding operations and dealing with that was a very important 
thing.
    So you have to look at the right mix between voluntary and 
regulatory, with good enforcement associated with that. And 
then sometimes you have to go back to the drawing board and go 
forward with plan B.
    Senator Cardin. Anyone else want to comment?
    Mr. Wright.
    Mr. Wright. Yes. I think in the Tahoe Basin, we do have 
that kind of mix that folks are talking about. TRPA long ago 
established a very aggressive, basically two-phased plan. One 
is a very strong regulatory framework, but we also have a 
comprehensive restoration plan that is voluntary, but they are 
linked. So local jurisdictions are put on notice that if they 
don't meet these certain non-regulatory targets, that there is 
going to be an impact on their ability to develop in the basin. 
And it has worked very, very well.
    Obviously, you have to have agreement on those goals and 
those benchmarks to make that effective. And you also have to 
have a commitment, and this is where we all keep coming back to 
funding, it is relatively easy to get together a contentious 
group of State, local and Federal folks to develop a plan, but 
to sustain that plan, to continue to get funding for science 
and monitoring and oversight and coordination is probably the 
biggest challenge we all face because the political pressure is 
so intense to get projects done on the ground, as opposed to 
having the kind of performance measures, monitoring systems, 
adaptive management systems that will provide you with the kind 
of accountability you need.
    So we think it is a combination of having a regulatory 
program and the voluntary program, but also have the systems in 
place so that we can track and account for the success that we 
are having.
    Senator Cardin. Mr. Dicks.
    Mr. Dicks. Yes, I would just quickly echo that. I think one 
of the things we are finding is from a longevity standpoint, if 
you don't invest in monitoring and really actually know the 
truth about what is or is not happening on the ground, you 
can't have an accountability system.
    So when Bill Ruckelshaus took the chairmanship of our 
Leadership Council, the one thing he asked our Governor was, 
you have got to invest in monitoring. And that was the 
commitment she made. Because if you don't do that, you don't 
know two things. One, you don't know how to change in an 
effective manner. So we tried this, it doesn't work, what do we 
do next. You don't learn. You don't have a learning sort of 
organization.
    But secondarily, when you call us back here in a couple of 
years after some of these things are moving forward, if we 
can't say, we started here, and now we are here, and here is 
the monitoring results and credible science program to be able 
to peer review that, that is going to be the end of our 
programs. So I think a lot of us get that.
    I would say just quickly on the voluntary versus regulatory 
side, it is this mix. Bill would also say, I think, you have to 
have rules. You have got to have limits, and you have got to 
have sort of a bottom line. But you also at that point have to 
sort of set that out, and then give people the capacity, the 
resources, the encouragement, the help, the scientific input to 
enable people to be successful to meet those targets.
    So that is kind of the model we are trying to pursue with 
Puget Sound, and I think it is a very good question. Hopefully, 
with monitoring, with true understanding of what is going on, 
it is pretty easy to then hold people accountable in comparison 
to where we have maybe been in the past.
    Senator Cardin. Well, one of the things we learned from the 
Chesapeake Bay Program is that we had 5-year plans, and we 
would wake up after the fifth year and say, gee, we didn't do 
what we said we were going to do.
    We are now looking at 2-year reviews and modifications 
based upon, again, good science during the entire period. So 
you have the monitoring, and you have the progress, and you 
don't wait until the end of the plan before recognizing that 
what was established 5 years earlier was either not realistic 
or was not complied with.
    And you are absolutely right. We do have regulatory 
enforcement now. It is not necessarily directed toward the 
program that you all are trying to see specified by the Federal 
partnerships, so you have different pieces here and there. And 
what we are trying to do with the Chesapeake Bay is to try to 
focus it in on the Bay itself, to have local plans and local 
enforcement, but with accountability to achieve the results 
that science tells us we can.
    Mr. Grannis, I interrupted you before. Did you have 
anything further?
    Mr. Grannis. I think that is a very important point because 
we have the headwaters of the Susquehanna River, and our 
farmers on the northern border, the border with Pennsylvania, 
are saying, why should we do anything when Pennsylvania is 
letting their farmers go ahead and not do what we are being 
called on to do?
    We have a very aggressive enforcement program. We are fully 
engaged and doing our part to clean up our contribution to the 
pollution that ends up in Chesapeake Bay, but in a political 
sense not having the same standards not only on paper, but 
enforced. And that is a very, very difficult issue for our 
farmers that are just looking at their contemporaries across 
the border and seeing that they can do things which our farmers 
aren't being allowed to do.
    Senator Cardin. Yes, I think that is a key part. You have 
to have a plan where, as you said all the lands are, whoever 
said, the last panel, said all the lands are included. All the 
geographical areas that are impacted need to be a part of the 
program so that there is a sense of fairness here.
    You are right. If farmers in one State are treated 
differently than the farmers in another State with the same 
problem areas, that is not right; we need to have a coordinated 
plan. The plans need to be locally sensitive because there are 
differences in New York and Pennsylvania, but they need to have 
the same objectives.
    Mr. Grannis. Yes, sir.
    Mr. Naftzger. If I might add, responding to your question, 
Mr. Chairman, I think we need to be more courageous than we 
have been historically and be more open to changing course when 
things aren't working.
    Senator Cardin. Right.
    Mr. Naftzger. We in the Great Lakes had a system of 
managing how water was used for 16 years. It was not working 
particularly well. It took us 7 years to negotiate an inter-
State compact and get that into law, so we solved that problem.
    We have had many Federal programs that have been looking at 
the Great Lakes for many, many years. We have achieved some 
successes, but it wasn't working as well as it could or should 
have. So it took this Administration's proposal, this Great 
Lakes Restoration Initiative to say, let's try something 
different; let's try a different model and see what the results 
turn out to be. If those fall short, we should be back here 
having a conversation and saying, how can we change course 
again? And what can we be doing differently or better?
    We need to be demanding, and we need to be courageous. I 
think we have gotten a few good examples that suggest that that 
is possible, but it is not easy.
    Senator Cardin. Clearly, being able to adjust, based upon 
the realities, need to be there. The realities might well be 
budgets. You know, you planned a program based upon certain 
support. Well, that support was not possible under the 
political environment of our time, so you have to be able to 
adjust. That is all part of the monitoring that I think is not 
just monitoring the progress you are making as far as the water 
quality; it is progress that you are making in regards to 
implementation of your plan.
    Ms. Marriott.
    Ms. Marriott. I agree with my colleaguesand certainly your 
points. I would add that I think sometimes we also need to do a 
better job talking about the implications of not acting and 
helping us as citizens understand why we need to undertake some 
of these efforts and how our individual efforts play into this 
as well.
    Senator Cardin. Agreed. Yes.
    Mr. Tauzel.
    Mr. Tauzel. Thank you, Mr. Chairman. Yes, just to respond a 
little bit on the topic. You are absolutely right. Our farmers 
believe truly in equitable enforcement across--you know, if our 
farmers are being held to a level of environmental conservation 
and environmental stewardship, all farmers, we believe, should 
be held to that same level.
    The question is, though, whether that necessitates 
additional legislative authority. And I think that right now, 
Federal regulations do provide every State the opportunity to 
regulate in the same level. Beyond that, I think what is also 
important to recognize when dealing with the agricultural 
community is that environmental management makes good business 
sense. Longer term businesses, sustainable businesses need to 
make sure that they are protecting the environment.
    So with that in mind, if we have farms, what I want to 
suggest is another approach that the Federal Government could 
take for accountability procedures as well, is that if we have 
good actors, if we have people who are doing their job, and if 
they are protecting water quality, that we reward those 
participants, that we provide additional incentives to 
agricultural operations that are doing a better job in managing 
the environment.
    Senator Cardin. Well, I agree with that. And the other side 
of that is those farmers that have already made the right 
environmental investments need to be rewarded as we go forward 
with the next stage of expectations. We are trying, in the 
Chesapeake Bay region, to take those farmers who have gone 
beyond what they need to do on nutrient management, allowing 
them to benefit from the trading program because they have gone 
beyond what would have been required. So they have actually 
done more. You shouldn't be penalized because you did the right 
thing.
    Mr. Tauzel. Thank you for those thoughts, Mr. Chairman.
    Senator Cardin. Right. Well, thank you all. This has been a 
very helpful panel, and we thank you for your contributions. 
Obviously, this is going to be an area of great interest to our 
Committee and great interest to the U.S. Senate.
    With that, the Committee-Subcommittee stands adjourned.
    [Whereupon, at 12 p.m. the Committee and Subcommittee were 
adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman and Chairman Cardin, for holding 
this hearing on the following great water bodies: the Great 
Lakes, Lake Tahoe, Puget Sound, Long Island Sound, and the 
Columbia River.
    Americans use these great water bodies for recreation, and 
businesses use them as essential transportation links from 
ocean ports to inland ports where goods are then distributed 
throughout the country. Furthermore, water from these water 
bodies irrigate farms, provide drinking water and generate 
electricity. Their many important and essential uses to our 
everyday lives truly make them great.
    The Clean Water Act states that ``it is the policy of 
Congress to recognize, preserve, and protect the primary 
responsibilities and rights of States to prevent, reduce, and 
eliminate pollution, to plan the development and use (including 
restoration, preservation, and enhancement) of land and water 
resources.'' (Clean Water Act, sec. 101(b)). Regional 
commissions have been established to, among other things, help 
States and local governments balance the many needs for water 
use with water protection.
    When States have conflicts on how to respond to issues 
affecting these great water bodies regional commissions should 
serve as the appropriate referees to resolve these conflicts. 
If that option fails then the Federal Government can provide 
tools and assistance to reach a resolution.
    Additionally, it is appropriate for the Federal Government 
to set national standards and provide assistance in meeting 
those clean water goals. It is not the role of the Federal 
Government, however, to decide how water bodies should be used 
or to plan for the use of land within States. Let me emphasize: 
Washington, DC, should not be issuing mandates determining how 
a water body should be used.
    Several bills have either been introduced or are currently 
being worked on to help address some of pollution control 
concerns. I hope that this Committee will hold additional 
legislative hearings on these individual bills to determine how 
they balance the authority of Federal, regional, State, and 
local governmental bodies in addressing interstate or regional 
water concerns.
    Thank you again.

                     Statement of Hon. Carl Levin, 
                U.S. Senator from the State of Michigan

    The Great Lakes are vital not only to Michigan but to the 
Nation. Roughly one-tenth of the U.S. population lives in the 
Great Lakes basin and depends daily on the lakes. The Great 
Lakes provide drinking water to 40 million people in the U.S. 
and Canada. They provide the largest recreational resource for 
their 8 neighboring States and for millions more from other 
States and other countries. They form the largest body of 
freshwater in the world, containing roughly 18 percent of the 
world's total; only the polar ice caps contain more freshwater. 
They are critical for our economy by helping move natural 
resources to the factory and to move products to market.
    While the environmental protections that were put in place 
in the early 1970s have helped the Great Lakes make strides 
toward recovery, a 2003 GAO report made clear that there is 
much work still to do. That report stated, ``Despite early 
success in improving conditions in the Great Lakes Basin, 
significant environmental challenges remain, including 
increased threats from invasive species and clean up of areas 
contaminated with toxic substances that pose human health 
threats.'' More recently, many scientists reported that the 
Great Lakes are exhibiting signs of stress due to a combination 
of sources, including toxic contaminants, invasive species, 
nutrient loading, shoreline and upland land use changes, and 
hydrologic modifications. A 2005 report from a group of Great 
Lakes scientific experts states that ``historical sources of 
stress have combined with new ones to reach a tipping point, 
the point at which ecosystem-level changes occur rapidly and 
unexpectedly, confounding the traditional relationships between 
sources of stress and the expected ecosystem response.''
    Asian carp represents a massive threat, and a number of 
important actions are required to deal with it. The zebra 
mussel, an aquatic invasive species, caused 
$3 billion in economic damage to the Great Lakes from 1993 to 
2003. In 2000, seven people died after pathogens entered the 
Walkerton, Ontario, drinking water supply from the lakes. In 
May 2004, more than 10 billion gallons of raw sewage and storm 
water were dumped into the Great Lakes. In that same year, more 
than 1,850 beach closures in the Great Lakes. Each summer, Lake 
Erie develops a 6,300-square-mile dead zone. There is no 
appreciable natural reproduction of lake trout in the lower 
four lakes. More than half of the Great Lakes region's original 
wetlands have been lost, along with 60 percent of the forests. 
Wildlife habitat has been destroyed, diminishing opportunities 
necessary for fishing, hunting and other forms of outdoor 
recreation.
    These problems have been well known for several years, and 
in 2005, 1,500 people through the Great Lakes region worked 
together to compile recommendations for restoring the lakes. 
These recommendations were released in December 2005, and the 
President's Great Lakes Restoration Initiative has been a path 
to addressing these many threats. The Great Lakes Restoration 
Initiative is a 5-year commitment of the President. It 
represents great hope for the Lakes.
    Building on past success, there are a number of programs 
that need to be authorized and reauthorized in Federal law. For 
instance, the Great Lakes Interagency Task Force, established 
by Executive Order in 2004, requires that the many Federal 
agencies operating in the Great Lakes coordinate with each 
other. Restoring the Great Lakes involves many stakeholders, 
including the Federal Government, States, cities, tribes and 
others, and Congress needs to be sure that the Federal agency 
efforts are in order.
    The Great Lakes Legacy program has been extremely 
successful and has cleaned up about 900,000 cubic yards of 
contaminated sediments at areas of concern throughout the Great 
Lakes. This is a partnership program which requires a non-
Federal cost-share to address the legacy of contaminated 
sediment in our region. The Legacy program expires at the end 
of 2010.
    Finally, the Great Lakes region needs a process for 
advising the EPA and other Federal agencies on Great Lakes 
matters. While there have been various advisory groups that 
have been pulled together over the years, there has never been 
a standing advisory entity, and that has been a gap in the 
governance and management of the Great Lakes.
    Mr. Chairman, the Great Lakes are a unique American 
treasure. We must recognize that we are only their temporary 
stewards. We must be good stewards by doing all we can to 
ensure that the Federal Government meets its ongoing obligation 
to protect and restore the Great Lakes.

    [Additional material submitted for the record follows:]
    
    
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
        
                                 [all]
</pre></body></html>
